<html>
<title> - H.R. 1635, H.R. 755, H.R. 1718, AND H.R. 708</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
              H.R. 1635, H.R. 755, H.R. 1718, AND H.R. 708

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

H.R. 1635, to Establish Within the United States National Park Service 
 the National Underground Railroad Network to Freedom Program, and for 
Other Purposes. H.R. 755, to Amend the Internal Revenue Code of 1986 to 
    Allow Individuals to Designate Any Portion of their Income Tax 
Overpayments, and to make Other Contributions, for the Benefit of Units 
 of the National Park System. H.R. 1718, to Provide for the Conveyance 
 of Certain Lands in Wyoming to the County of Park, Wyoming. H.R. 708, 
  to Require the Secretary of Interior to Conduct a Study Concerning 
Grazing Use of Certain Land within and adjacent to Grand Teton National 
  Park, Wyoming, and to Extend Temporarily Certain Grazing Privileges.

                               __________

                     JULY 22, 1997--WASHINGTON, DC

                               __________

                           Serial No. 105-37

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 44-138 CC                   WASHINGTON : 1997
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director

                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                                     LLOYD DOGGETT, Texas
                        Allen Freemyer, Counsel
                     Dan Smith, Professional Staff
                    Liz Birnbaum, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held July 22, 1997.......................................     1

Statements of Members:
    Christian-Green, Hon. Donna, a Representative in Congress 
      from the Virgin Islands....................................     7
        Prepared statement of....................................     8
    Cubin, Hon. Barbara, a Representative in Congress from the 
      State of Wyoming...........................................    14
        Prepared statement of....................................    16
    Duncan, Hon. John J., Jr., a Representative in Congress from 
      the State of Tennessee.....................................     4
        Prepared statement of....................................     5
    Hansen, Hon. James, a Representative in Congress from the 
      State of Utah..............................................     1
        Prepared statement of....................................     3
    Portman, Hon. Rob, a Representative in Congress from the 
      State of Ohio..............................................    10
        Prepared statement of....................................    12
    Stokes, Hon. Louis, a Representative in Congress from the 
      State of Ohio..............................................     8
        Prepared statement of....................................    10

Statements of witnesses:
    Blockson, Charles L., Curator, Charles L. Blockson Afro-
      American Collection, Temple University.....................    24
        Prepared statement of....................................    89
    Eisenberg, Albert C., Deputy Director for Conservation 
      Policy, National Parks and Conservation Association........    32
        Prepared statement of....................................   110
    Galvin, Denis P., Acting Deputy Director, National Park 
      Service....................................................    17
        Prepared statement of....................................    61
    Gantt-Wright, Iantha, Diversity Outreach Manager, National 
      Parks and Conservation Association.........................    22
        Prepared statement of....................................    86
    Howe, Allan T., Washington Representative, National Park 
      Hospitality Association....................................    34
        Prepared statement of....................................   136
    Martinez, Eluid, Commissioner, Bureau of Reclamation.........    18
        Prepared statement of....................................    72
    Nelson, Cathy, State Coordinator, Ohio Underground Railroad 
      Association................................................    26
        Prepared statement of....................................    93
    Rigaud, Edwin J., Executive Director, National Underground 
      Railroad Freedom Center, Cincinnati, Ohio..................    28
        Prepared statement of....................................    98

Additional material supplied:
    List of Friends of Freedom Society...........................    95
    Maynard, Charles W., Executive Director, Friends of Great 
      Smoky Mountains National Park Sevierville, Tennessee, 
      prepared statement of......................................   143
    Snowe, Hon. Olympia J., additional testimony submitted by for 
      Maine Underground Railroad Association.....................    75
    Text of H.R. 1635............................................    39
    Text of H.R. 755.............................................    46
    Text of H.R. 1718............................................    51
    Text of H.R. 708.............................................    56



                              HEARING ON:
H.R. 1635, TO ESTABLISH WITHIN THE UNITED STATES NATIONAL PARK SERVICE 
 THE NATIONAL UNDERGROUND RAILROAD NETWORK TO FREEDOM PROGRAM, AND FOR 
                            OTHER PURPOSES.

     H.R. 755, TO AMEND THE INTERNAL REVENUE CODE OF 1986 TO ALLOW 
INDIVIDUALS TO DESIGNATE ANY PORTION OF THEIR INCOME TAX OVERPAYMENTS, 
   AND TO MAKE OTHER CONTRIBUTIONS, FOR THE BENEFIT OF UNITS OF THE 
                         NATIONAL PARK SYSTEM.

H.R. 1718, TO PROVIDE FOR THE CONVEYANCE OF CERTAIN LANDS IN WYOMING TO 
                      THE COUNTY OF PARK, WYOMING.


   H.R. 708, TO REQUIRE THE SECRETARY OF INTERIOR TO CONDUCT A STUDY 
  CONCERNING GRAZING USE OF CERTAIN LAND WITHIN AND ADJACENT TO GRAND 
TETON NATIONAL PARK, WYOMING, AND TO EXTEND TEMPORARILY CERTAIN GRAZING 
                              PRIVILEGES.

                              ----------                              


                         TUESDAY, JULY 22, 1997

        House of Representatives, Subcommittee on National 
            Parks and Public Lands, Committee on Resources, 
            Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m., Room 
1324, Longworth House Office Building, Hon. James V. Hansen 
(Chairman of the Subcommittee) presiding.

 STATEMENT OF HON. JAMES HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. The Subcommittee on National Parks and Public 
Lands convenes to receive testimony on several bills. I want to 
welcome the members who join us today as sponsors and co-
sponsors of the legislation before us. We will hear H.R. 1635 
by Mr. Stokes and Mr. Portman to establish the National 
Underground Railroad Network to Freedom program, H.R. 755 by 
Mr. Duncan to allow a tax checkoff for contribution to the 
National Park System, H.R. 1718 by Mrs. Cubin to transfer lands 
in Park County, Wyoming, and H.R. 708, also by Mrs. Cubin, to 
study and extent grazing rights on lands within and adjacent to 
Grand Teton National Park.
    The first bill we will hear today is H.R. 1635, the 
National Underground Railroad Network to Freedom Act of 1997. 
The bill was introduced by our colleagues Mr. Stokes and Mr. 
Portman, who are here today to testify. The bill has over 70 
co-sponsors representing broad bipartisan support.
    H.R. 1635 does not create any additional units to the 
National Park System, but provides for the National Park System 
to establish a program to coordinate, produce and distribute 
interpretative educational materials, enter into cooperative 
agreements to provide technical assistance to State and local 
governments in the private sector, and provides an official 
symbol for the 380 sites and structures associated with this 
historic social and humanitarian movement to resist slavery in 
the United States in the 1800's.
    H.R. 755 is the National Parks Checkoff Act, introduced by 
Mr. Duncan, a member of this Subcommittee. This bill would 
amend the Internal Revenue Code to allow individual taxpayers 
to voluntarily designate a portion of their overpayment of 
Federal income tax or make a contribution in addition to their 
Federal tax payment of one dollar or more for the benefit of 
the National Park Service.
    This concept is unique in that there is no budgetary 
impact. This is a voluntary decision by the taxpayer. None of 
the funds can be used for land acquisition, but only for 
operation and maintenance of the units of the National Park 
System.
    The next bill is H.R. 1718. H.R. 1718 provides for the 
conveyance of 190 acres of land in Wyoming to the County of 
Park, Wyoming. The land conveyed can only be used for economic 
development by the county or, if the property is transferred to 
a local non-profit organization, solely for the purposes of 
economic development. This bill would convey all right, title 
and interest, except for any right or interest in oil and gas 
reserves, which would remain held by the U.S. Government. As 
originally proposed, if within 5 years of the authorization of 
the conveyance the Secretary determines that the property is 
not being used for economic development, then right, title and 
interest shall revert back to the Federal Government. The 
Federal Government also agrees to hold harmless future owners 
from violations that may have occurred from past activity. We 
are aware of a few concerns with this bill that have recently 
come to light, and Mrs. Cubin will describe H.R. 1718 and some 
of the concerns when the time comes.
    Lastly, H.R. 708, sponsored by Mrs. Cubin, is designated to 
address a problem that is beginning to affect many of our 
Federal lands, and that is development up to the boundaries of 
our parks and recreation areas. I am the last person in 
Congress to endorse buffer zones, however in this instance Mrs. 
Cubin has crafted a solution that I believe will insure 
responsible grazing in and around the park for years to come 
and will insure the benefits these ranchers provide the park 
and its resources are not taken over by con-

dominium developments. Many people forget that if we run the 
true stewards of our Federal lands off these lands, the private 
lands will likely be sold and developed for purposes that are 
completely in contradiction to conservation and responsible 
commodity products.
    We will hear from Mr. Duncan first. Mrs. Cubin is second, 
and then members from the Committee in the order they arrive. I 
ask unanimous consent that any of these members be allowed to 
join us on the dias after their testimony. We will then call 
upon Administration witnesses, Mr. Galvin and Mr. Martinez, to 
testify on the bills before us. Panel II will address H.R. 
1635. Panel III will address H.R. 755. We appreciate the 
testimony attendants and look forward to their testimony.
    [Statement of Hon. James Hansen follows:]

 Statement of Hon. James V. Hansen, a Representative in Congress from 
                           the State of Utah

    The Subcommittee on National Parks and Public Lands 
convenes to receive testimony on several bills. I want to 
welcome the Members who join us today as sponsors and co-
sponsors of the legislation before us. We will hear H.R. 1635 
by Mr. Stokes and Mr. Portman to establish the National 
Underground Railroad Network to Freedom program, H.R. 755, by 
Mr. Duncan to allow a tax cheek-off for contributions to the 
National Park System, H.R. 1718, by Mrs. Cubin to transfer 
lands in Park County, Wyoming and H.R. 708, also by Mrs. Cubin 
to study and extend grazing rights on lands within and adjacent 
to Grand Teton National Park.
    The first bill we will hear today is H.R. 1635, ``The 
National Underground Railroad Network to Freedom Act of 1997.'' 
The bill was introduced by our colleagues Mr. Stokes and Mr. 
Portman, who are here today to testify. The bill has over 70 
co-sponsors representing broad bipartisan support.
    H.R. 1635 does not create any additional units to the 
National Park System, but provides for the National Park 
Service to establish a program to coordinate, produce and 
distribute interpretative educational materials, enter into 
cooperative agreements to provide technical assistance to State 
and local governments and the private sector; and provide an 
official symbol for the 380 sites and structures associated 
with this historic social and humanitarian movement to resist 
slavery in the United States in the 1800's.
    H.R. 755 is The National Parks Checkoff Act, introduced by 
Mr. Duncan, a Member of this Subcommittee. The bill would amend 
the Internal Revenue Code to allow individual taxpayers to 
voluntarily designate a portion of their overpayment of Federal 
income tax, or make a contribution in addition to their Federal 
Tax payment, of one dollar or more for the benefit of the 
National Park System.
    This concept is unique in that there is no budgetary 
impact. This is a voluntary decision by the taxpayer. None of 
the funds can be used for land acquisition, but only for 
operation and maintenance of the units of the National Park 
System.
    The next bill is H.R. 1718. H.R. 1718 provides for the 
conveyance of 190 acres of land in Wyoming to the County of 
Park, Wyoming. The land conveyed can only be used for economic 
development by the county or, if the property is transferred, 
to a local non-profit organization, solely for the purposes of 
economic development. This bill would convey all right, title, 
and interest, except for any right or interest in oil and gas 
reserves, which would remain held by the U.S. Government. As 
originally proposed, if within 5 years of the authorization of 
the conveyance, the Secretary determines that the property is 
not being used for economic development, then right, title, and 
interest shall revert back to the Federal Government. The 
Federal Government also agrees to hold harmless future owners 
from violations that may have occurred from past activity. We 
are aware of a few concerns with this bill that have recently 
come to light and Mrs. Cubin will describe H.R. 1718 and some 
of the concerns.
    Lastly, H.R. 708, sponsored by Mrs. Cubin is designed to 
address a problem that is beginning to affect many of our 
Federal lands and that is development up to the boundaries of 
our parks and recreation areas. I am the last person in 
Congress to endorse buffer zones; however, in this instance, 
Mrs. Cubin has crafted a solution that I believe will insure 
responsible grazing in and around the park for years to come 
and will insure the benefits these ranches provide the park and 
its resources are not taken over by condominium developments. 
Many people forget that if we run the true stewards of our 
Federal lands off those lands, the private lands will likely be 
sold and developed for purposes that are completely in 
contradiction to conservation and responsible commodity 
production.
    We will hear from Mr. Duncan on H.R. 755 first, Mrs. Cubin, 
who sits on the Full Committee, second and then Members from 
off the Committee in the order they arrived. I ask unanimous 
consent that any of these Members be allowed to join us on the 
dais after their testimony. We will then call the 
Administration witnesses, Mr. Galvin and Mr. Martinez to 
testify on all of the bills before us. Panel II will address 
H.R. 1635 and then Panel III will address H.R. 755. We 
appreciate the witnesses attendance and look forward to the 
testimony.

    Mr. Hansen. Mr. Duncan, do you have any opening statement, 
sir?

  STATEMENT OF HON. JOHN J. DUNCAN, JR., A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mr. Duncan. Well, Mr. Chairman, first I would like to thank 
you for holding this hearing. You have already explained H.R. 
755, the National Parks Checkoff Act. This is a simple bill 
that would place a checkoff box on Federal income tax forms so 
that taxpayers could make donations, voluntary donations, to 
our National Parks. Unlike the Presidential Checkoff, this 
would not divert funds from the Treasury. Taxpayers would only 
be able to give above what they already owe or return part of 
their refund for this purpose. They would not be allowed to 
divert part of their tax dollars toward this fund. Therefore, 
it would not have any negative impacts upon the Federal budget.
    The other point that--another major point that should be 
noted is that this legislation would not allow any of this 
money to be used for land acquisition. This is because I and 
many others feel that this money should be used to address the 
estimated $4 to $6 billion maintenance backlog that the Park 
Service currently has. I do not think we should be expanding 
the National Park System at a time that we are having such 
extreme difficulties taking care of what we already have.
    This bill has strong bipartisan support. It has at this 
time a total of 70 co-sponsors, 35 Democrats and 35 
Republicans. Nine members of this Subcommittee are co-sponsors, 
including the Chairman and the Ranking Member. And, Mr. 
Chairman, I want to say that I certainly appreciate your 
support of this legislation.
    In addition, this bill has received the support of the Full 
Committee Chairman, Representative Don Young, and the Chairman 
of the Interior Appropriations Subcommittee, Representative 
Ralph Regula. This bill has also been endorsed by organizations 
such as the National Tour Association, the American Hiking 
Society, America Outdoors, Friends of the Smokies and several 
other leading organizations. I believe we will also hear today 
from witnesses from the National Parks and Conservation 
Association and the National Parks Hospitality Association on 
this bill.
    Mr. Chairman, I believe that the Federal Government should 
take a closer look at some of the State programs which have 
been so successful which are similar to this. A report recently 
released by the Federation of Tax Administrators found that 
``State income tax checkoffs have proven to be popular ways of 
providing funding for various causes during times of tight 
State budgets.''
    Currently 41 States have some type of checkoff on their 
State income tax forms. At least 37 of these raise money for 
conservation funds. During the 1980's these checkoffs brought 
in over $30 million a year according to a USA Today article 
recently published. In addition, my staff was told by the 
Maryland Natural Resources Department that $1 million was 
raised last year alone through its checkoff program to protect 
the Chesapeake Bay.
    Mr. Chairman, if this legislation were passed, I really 
believe that it could raise a substantial amount. In fact, I 
believe hundreds of millions of dollars could be raised for our 
national parks. I believe this because Americans really love 
and support these parks and they are willing to pitch in to 
help. One national poll showed that 80 percent of the people 
would support a checkoff fund such as this on their income tax 
returns if they were allowed to do so.
    Let me just mention a couple other things. When the C&O 
Canal was destroyed by flooding, numerous people volunteered 
their time and money to help restore the canal. In fact, the 
Park Service at the C&O Canal estimated that over $1 million 
was donated and over 4,000 people donated time to help clean 
up.
    In my own district a group of individuals formed the 
Friends of the Smokies three years ago to help the Great Smoky 
Mountains National Park. In just this short period of time, 
this organization has raised over $1.3 million for the Park. 
This Friends group placed a donation box at one of the more 
popular points in the park. At the height of the visitation 
season, this box took in more than $1,000 a day.
    The legislation I have introduced simply places a donation 
box on tax forms and does not require any specific amount. It 
just says any even dollar amount. Many people would donate one 
dollar, five dollars, but some people might even donate 
extremely large amounts if they were allowed to do so or 
encouraged in this way.
    In conclusion, Mr. Chairman, we all know about the problems 
which exist in our national parks, and it was highlighted just 
last week in the cover story by U.S. News and World Report 
called Parks In Peril. I agree that many of our parks are in 
peril, however I disagree with one point made in the magazine. 
The cover of its July 21 edition stated that there is 
Congressional indifference toward our parks. I think that the 
fact that you are holding this hearing and the many other 
things that this Subcommittee has done under your direction, 
such as allowing parks to keep more of the fees they collect, 
shows that everyone on this Subcommittee and many, many people 
in this Congress are very concerned about the condition of our 
national parks.
    I believe that passage of H.R. 755, the National Parks 
Checkoff Act, will go a long way toward protecting these 
national treasures for future generations.
    Again, Mr. Chairman, I would like to thank you very much 
for holding this hearing and for supporting this legislation 
and for giving me the opportunity to discuss the merits of this 
legislation.
    [Statement of Hon. John Duncan follows:]

  Statement of Hon. John J. Duncan, Jr., a Representative in Congress 
                      from the State of Tennessee

    First, I would like to thank the Chairman for holding this 
hearing.
    H.R. 755, the National Parks Checkoff Act, would simply 
place a checkoff box on Federal income tax forms so that 
taxpayers could make donations to our National Parks.
    Unlike the Presidential Checkoff, this would not divert 
funds from the Treasury.
    Taxpayers would only be able to give above what they 
already owe, or return part of their refund for this cause.
    They would not be allowed to divert part of their tax 
dollars toward this fund. Therefore, it would not have any 
negative impacts upon the Federal budget.
    The other point that should be noted is that this 
legislation would not allow any of this money to be used for 
land acquisition.
    I feel that this money should be used to address the 
estimated $4 to $6 billion maintenance backlog the Park Service 
currently has.
    I do not think that we should expand the National Park 
System when we cannot take care of what we already have.
    This bill has strong bipartisan support. It has a total of 
70 cosponsors--35 Democrats and 35 Republicans. Nine Members of 
this Subcommittee are cosponsors, including the Chairman and 
the Ranking Member. I want say that I appreciate their support.
    In addition, this legislation has received the support of 
the Full Committee Chairman, Rep. Don Young, and the Interior 
Appropriations Subcommittee Chairman, Rep. Ralph Regula.
    This bill has also been endorsed by organizations such as 
the National Tour Association, the American Hiking Society, 
America Outdoors, Friends of the Smokies, and I believe we will 
hear from our witnesses today, the National Parks and 
Conservation Association and the National Parks Hospitality 
Association, as to where they stand on this bill.
    Mr. Chairman, I believe that the Federal Government should 
take a closer look at some of the State programs which have 
been successful.
    A report recently released by the Federation of Tax 
Administrators found that:

        ``State income tax check-offs have proven to be popular ways of 
        providing funding for various causes during times of tight 
        State budgets.''
    Currently, 41 States have some type of checkoff on their 
State income tax forms.
    At least 37 of these raise money for conservation funds. 
During the 1980's these checkoffs brought in over $30 million a 
year according to a USA Today article recently published.
    In addition, my staff was told by the Maryland Natural 
Resources Department that $1 million was raised last year 
through its checkoff program to protect the Chesapeake Bay.
    Mr. Chairman, if this legislation were passed, I really 
believe that it could raise a substantial amount of money for 
our Parks.
    I believe this because Americans really love their parks, 
and they are willing to pitch in to help.
    Let me give you just a couple of examples.
    When the C&O Canal was destroyed by flooding, numerous 
people volunteered their time and money to help restore the 
Canal. In fact, the Park Service at the C&O Canal estimated 
that over $1 million was donated and over 4,000 people 
volunteered to help with the clean up.
    In my own District, a group of individuals formed the 
Friends of the Smokies 3 years ago to help the Great Smoky 
Mountains National Park. In just this short period of time, 
this organization has raised over $1.3 million for the Park.
    This Friends group placed a donation box at one of the more 
popular points in the Park. At the height of the visitation 
season this box took in more than $1,000 a day.
    The legislation I have introduced simply places a donation 
box on tax forms. I believe, it, too, can do great things for 
our parks.
    In conclusion, Mr. Chairman, we all know about the problems 
which exist in our parks, as it was highlighted in a recent 
cover story by U.S. News and World Report.
    I agree that many of our parks are in peril, however, I 
disagree with one point made in this magazine. The cover of its 
July 21st edition stated that there is congressional 
indifference toward our parks.
    I think that the fact you are holding this hearing, and the 
many other things that this Subcommittee has done under your 
direction, such as allowing parks to keep more of the fees they 
collect, shows that everyone on this Subcommittee is very 
concerned about the condition of our National Parks.
    I believe that the passage of H.R. 755, the National Parks 
Checkoff Act, will go a long way toward protecting these 
national treasures for future generations.
    Again, Mr. Chairman, I would like to thank you for holding 
this hearing and giving me the opportunity to discuss the 
merits of this legislation, and I yield back the balance of my 
time.

    Mr. Hansen. Thank the gentleman.
    Mr. Duncan. Thank you.

 STATEMENT OF HON. DONNA CHRISTIAN-GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Ms. Christian-Green. Thank you, Mr. Chairman. And it is a 
distinct honor and pleasure for me not only to be able to give 
these brief opening remarks in support of H.R. 1635, the 
National Underground Railroad Network to Freedom Bill, but also 
to welcome our esteemed colleagues who have sponsored this 
historic piece of legislation, and the other outstanding 
panelists this morning.
    I am proud to be a co-sponsor of this historic bill, and I 
look forward to hearing the witnesses' testimony.
    I am especially pleased and proud to welcome Congressman 
Lou Stokes, the dean of the Congressional Black Caucus, and 
someone who has graciously taken me under his wing since I have 
arrived at the House. And I want to take this opportunity to 
thank him for his leadership on this issue, as well as on 
health care and on other issues of importance to the integrity 
of this Nation.
    In 1990 the Congress, in its wisdom, directed what I am 
sure was a very willing National Park Service to study how best 
to interpret and commemorate the Underground Railroad. I trust 
that this Committee and this Congress will be just as wise and 
pass this significant piece of legislation.
    As we embark on a national dialog on race and its impact on 
our past, present and future, the memorializing of this 
testament to the courage and sacrifice of many people of all 
persuasions and to the spirit, strength and the determination 
of the Africans who had been forced into brutal slavery will be 
an important legacy.
    Already the investigators have greatly expanded our 
knowledge of this important heritage trail. We now know that 
this was a far more complex and expansive network than we 
thought. I am particularly happy that their investigation went 
beyond the borders of the continent to the Caribbean, and I 
trust they have included the escape routes to freedom which my 
ancestors used from the Virgin Islands to nearby Puerto Rico.
    From this study, and the bill before us today, we will come 
to know the many heretofore nameless individuals and groups who 
made the route come alive, and the traditions that created its 
culture. All were an integral part of the entire experience. An 
experience which, with the passage of this legislation, will 
bring us closer to realizing this effort which will serve to 
enrich the lives of all Americans.
    I get very excited when I think about this project and its 
unlimited potential to be a part of the education of this 
country, the healing of our diverse community and a source of 
strength, direction and hope for our children.
    So I again thank the panelists and you, Mr. Chairman, for 
holding this hearing and for this opportunity to voice my 
enthusiasm and support for this important project. And I urge 
all of my colleagues to give it their unqualified and 
wholehearted support, as well.
    Thank you, Mr. Chairman.
    [Statement of Hon. Donna Christian-Green follows:]

 Statement of Hon. Donna M. Christian-Green before the Subcommittee on 
  National Parks on H.R. 1635, to establish The National Underground 
           Railroad Network to Freedom Program--July 22, 1997

    Thank you Mr. Chairman:
    It is a distinct privilege and honor, not only to be able 
to give these brief opening remarks in support of H.R. 1635, 
the National Underground Railroad Network to Freedom Bill, but 
to also welcome our esteemed colleagues who have sponsored this 
historic piece of legislation, and the other outstanding 
panelists.
    I am proud to also be a cosponsor of this historic bill and 
I look forward to hearing the witnesses' testimony.
    I am especially pleased and proud to welcome Congressman 
Lou Stokes, the dean of the Congressional Black Caucus, and 
someone who has graciously taken me under his wing since my 
coming to the House.
    I want to take this opportunity to thank him for his 
leadership on this issue, as well as, on health care and on 
other issues of importance to the integrity of our Nation.
    In 1990, the Congress in its wisdom directed, what I am 
sure was a very willing National Park Service, to study how 
best to interpret and commemorate the Underground Railroad.
    I trust that this Committee and this Congress will be just 
as wise and pass this significant piece of legislation.
    As we embark on a national dialog on race, and its impact 
on our past, present and future, the memorializing of this 
testament to the courage and sacrifice of many people, of all 
persuasions, and to the spirit, strength, and the determination 
of the Africans who had been forced into brutal slavery, will 
be an important legacy.
    Already the investigators have greatly expanded our 
knowledge of this important heritage trail. We now know that 
this was a far more complex and expansive network than we 
thought.
    I am particularly happy that their investigation went 
beyond the borders of the continent to the Caribbean, and I 
trust they have included the escape routes to freedom which my 
ancestors used from the Virgin Islands to nearby Puerto Rico.
    From this study, and the bill before us today, we will come 
to know the many heretofore nameless individuals and groups who 
made the route come alive, and the traditions that created its 
culture.
    All were an integral part of the entire experience. An 
experience which, with passage of this legislation, will bring 
us closer to realizing this effort which will serve to enrich 
the lives of all Americans.
    I get very excited when I think about this project and its 
unlimited potential to be a part of the education of this 
country, the healing of our diverse community, and a source of 
strength, direction and hope for our children.
    Again, I thank the panelists and you Mr. Chairman for 
holding this hearing and for this opportunity to voice my 
enthusiasm and support for this important project, and I urge 
all of my colleagues to give it their wholehearted and 
unqualified support as well.

    Mr. Hansen. Thank you. The gentlelady from Wyoming, Mrs. 
Cubin.
    Mrs. Cubin. I don't have an opening statement.
    Mr. Hansen. The gentleman from Nevada has no opening 
statement. We are honored to have our two distinguished 
colleagues with us today from Ohio who will testify regarding 
H.R. 1635. the National Underground Railroad Bill. We will 
first hear from the Honorable Lou Stokes, who I had the 
privilege of serving as his ranking member for a number of 
years, and a very distinguished member of our group, and also 
our distinguished friend from Ohio, the Honorable Rob Portman. 
We are grateful for both of you being here.
    Lou, we will start with you.

 STATEMENT OF HON. LOUIS STOKES, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Mr. Stokes. Thank you very much, Mr. Chairman and members 
of the Subcommittee. Mr. Chairman, before I begin my testimony, 
I want to take just a moment to express my appreciation to you 
for the expeditious manner in which you have responded to the 
request of Mr. Portman and myself to conduct hearings on our 
jointly sponsored legislation. We appreciate very much your 
responsiveness in this matter.
    I am pleased to appear before your panel this morning as 
you consider H.R. 1635, the National Underground Railroad 
Network to Freedom Act of 1997. My colleague, Congress Rob 
Portman, and I introduced this legislation in May. Since its 
introduction, the bill has enjoyed strong support on both sides 
of the aisle. As of this morning, we very proudly say to you 
that we now have 92 co-sponsors here in the House. This 
Subcommittee hearing represents an important step in our 
bipartisan effort to secure the enactment of H.R. 1635.
    The issue of slavery brings to mind a painful chapter in 
our Nation's history. As a result of forced enslavement, 
America witnessed the birth of a movement that would carry 
masses of people from slave quarters in the South to freedom in 
northern cities of the United States, Mexico, Canada and the 
Caribbean. This movement became known as the Underground 
Railroad.
    History teaches us that the Underground Railroad flourished 
from the end of the 18th century to the end of the Civil War. 
It was one of the most significant expressions of the American 
Civil Rights Movement. During its evolution over more than 
three centuries, the Underground Railroad movement helped 
thousands of African Americans gain the freedom and human 
dignity they were endowed with at their birth.
    Mr. Chairman, H.R. 1635, the National Underground Railroad 
Network to Freedom Act, is a good bill. Through the National 
Park Service, the measure will link Underground Railroad sites. 
The legislation directs the Secretary of the Interior to 
produce appropriate educational materials associated with the 
Underground Railroad. Further, the bill seeks to encourage 
public and private partnerships to tell the story of the 
Underground Railroad.
    It is our hope that through this legislation, we can 
educate all people concerning this important episode in 
American history. Second, we want to bring our country together 
by facing the lingering vestiges of our dehumanizing past, so 
that we can find common ground and move forward as a people. I 
am convinced that we cannot solve our racial problems unless we 
find a way to bring the American people together in the same 
manner the Underground Railroad bridged our divisions of race, 
religion, nationalities and spanned State lines and, indeed, 
international borders.
    I am pleased that a number of distinguished experts are 
joining us this morning to offer their strong support for the 
Underground Railroad bill. We are grateful for this high level 
of support.
    Before I close, Mr. Chairman, I also want to thank Mr. Dan 
Smith and the other members of your staff for the cooperation 
and the work that they did with us in order to bring this bill 
before you this morning. I also want to specifically thank Ms. 
Minnie Kenny and Ms. Joyce Larkin, members of my own staff, who 
worked so diligently on this legislation, along with members of 
Mr. Portman's staff. We have had an excellent working 
relationship, everyone here, to produce the bill we bring 
before you this morning.
    So, Mr. Chairman, I thank you for the opportunity to 
address the Subcommittee, and I will be pleased to answer any 
questions if there are any.
    [Statement of Hon. Louis Stokes follows:]

 Statement of Hon. Louis Stokes, a Representative in Congress from the 
                             State of Ohio

    Mr. Chairman, Members of the Subcommittee. Before I begin 
my testimony, I want to express my appreciation to you for the 
expeditious manner in which you have responded to the request 
of Mr. Portman and myself to conduct hearings on our jointly-
sponsored legislation.
    I am pleased to appear before your panel this morning as 
you consider H.R. 1635, The National Underground Railroad 
Network to Freedom Act of 1997. My colleague, Congressman Rob 
Portman, and I introduced this legislation in May. Since its 
introduction, the bill has enjoyed strong support on both sides 
of the aisle. This Subcommittee hearing represents an important 
step in our bipartisan effort to secure the enactment of H.R. 
1635.
    The issue of slavery brings to mind a painful chapter in 
our Nation's history. As a result of forced enslavement, 
America witnessed the birth of a movement that would carry 
masses of people from slave quarters in the south to freedom in 
northern cities of the United States, Mexico, Canada and the 
Caribbean. This movement became known as ``The Underground 
Railroad."
    History teaches us that the underground railroad flourished 
from the end of the 18th century to the end of the civil war. 
It was one of the most significant expressions of the American 
Civil Rights Movement during its evolution over more than three 
centuries. The Underground Railroad Movement helped thousands 
of African Americans to gain the freedom and human dignity they 
were endowed with at birth.
    Mr. Chairman, H.R. 1635, ``The National Underground 
Railroad Network to Freedom Act,'' is a good bill. Through the 
National Park Service, the measure will link underground 
railroad sites. The legislation directs the Secretary of the 
Interior to produce appropriate educational materials 
associated with the underground railroad. Further, the bill 
seeks to encourage public and private partnerships to tell the 
story of the underground railroad.
    It is our hope that through this legislation, we can 
educate all people concerning this important episode in 
American history. Second, we want to bring our country together 
by facing the lingering vestiges of our dehumanizing past, so 
that we can find common ground and move forward as a people. I 
am convinced that we cannot solve our racial problems unless we 
find a way to bring the American people together in the same 
manner the underground railroad bridged the divisions of race, 
religion, nationalities, and spanned State lines and 
international borders.
    I am pleased that a number of distinguished experts are 
joining us this morning to offer their strong support for the 
underground railroad bill. we are grateful for this high level 
of support.
    Thank you, Mr. Chairman, for the opportunity to address the 
Subcommittee. I would be pleased to answer any questions at 
this time.

    Mr. Hansen. Thank you, Mr. Stokes. Appreciate your 
comments.
    Mr. Portman, we will hear from you.

  STATEMENT OF HON. ROB PORTMAN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Mr. Portman. Thank you, Mr. Chairman. Mr. Duncan, Ms. 
Christian-Green, Mrs. Cubin, we appreciate the opportunity to 
be before you today.
    Mr. Chairman, I would like to echo the comments of my 
colleague, Mr. Stokes, in thanking you for having this hearing 
and helping us to expedite this process. This is a very 
important topic, and I think it is important that the 
Subcommittee, Full Committee and the Congress move forward on 
it.
    I want to commend Lou Stokes--he is the original sponsor of 
this legislation--for his leadership and also thank other 
Members of Congress who have signed on, and the experts and 
supporters of this project, many of whom are here with us 
today.
    As Congressman Stokes mentioned, H.R. 1635 now has strong 
bipartisan support. I also understand it has the support of the 
National Park Service--I think you will be hearing from them 
directly later--and the National Parks and Conservation 
Association.
    Allow me to go into a little more detail as to the three 
things this legislation does. First, it creates a National 
Underground Railroad Freedom Network from all existing units 
and programs of the National Park Service that pertain to the 
Underground Railroad, and also from historic buildings, 
interpretive centers, research facilities, community projects 
and activities directly related to the Underground Railroad 
that are spread throughout this country and really this 
hemisphere, all to commemorate and honor the history of the 
Underground Railroad.
    Much of what we know today, of course, has been handed down 
by oral traditions over the years. And as a recent National 
Park Service study indicated, much of the tangible evidence, we 
believe, is in danger of being lost forever. So this network is 
very important to establish.
    Second, Mr. Chairman, it requires the Secretary of the 
Interior to produce and disseminate appropriate educational 
materials such as maps, handbooks, interpretive guides or 
electronic information, and enter into cooperative agreements 
to provide technical assistance to facilities that have a 
verifiable connection to the Underground Railroad, and finally 
to create a uniform official symbol for the national network 
and to issue regulations for its use.
    Third, and I think, Mr. Duncan, this is along the lines of 
your opening statement regarding another bill, I think it is 
very important that this legislation strongly encourages 
public/private partnerships that I believe we should be doing 
in the era of the balanced budget discussions we are currently 
having in Congress.
    And finally, Mr. Chairman, the most important thing this 
legislation does--and it is not just the legislation but all 
the activities that it will promote--is it helps to foster a 
spirit of racial harmony and national reconciliation. Just as 
the Underground Railroad itself bridged the divide of race, 
religion, sectional differences and nationality and joined 
people in common purpose, so can this legislation. The powerful 
and largely untold stories of the brave men and women of the 
Underground Railroad can inspire us, I believe, even today 
about racial cooperation and reconciliation, about 
determination, about freedom and courage.
    Like so many of us, I have a personal connection to the 
Underground Railroad. The family home of my namesake and 
grandfather, who passed away just last year, was a station on 
the Underground Railroad. His great grandparents were Quakers 
and abolitionists who lived in a farmhouse near West Milton, 
Ohio, that harbored slaves who sought freedom. And so many of 
the prominent figures of the Underground Railroad happened to 
come from our area. Levi Coffin, another Quaker, was active as 
a conductor and often called the President of the Underground 
Railroad. Harriet Beecher Stowe, another Cincinnatian, wrote 
Uncle Tom's Cabin, which of course helped to galvanize the 
anti-slavery forces back in the 1850's.
    I would like to say a special thanks, Mr. Chairman, to my 
friend and fellow Cincinnatian, Ed Rigaud, who is with us here 
today and you will hear from in a moment, for his help. He has 
helped me to understand and appreciate the Underground Railroad 
experience. He is also leading an exciting effort in Cincinnati 
to establish a National Underground Railroad Freedom Center, 
funded primarily through private efforts. And he can talk a 
little about the funds they have been able to raise and the 
interest that they have locally in Cincinnati, and really 
around the country now, in this effort. The Cincinnati Center 
would be located on the banks of the Ohio River, the line 
dividing the free and the slave States.
    I would also like to recognize Iantha Gantt-Wright. She is 
here with us today, I saw, from the National Parks and 
Conservation Association, who also has been very helpful in 
providing input to Mr. Stokes and myself as we have gone 
through this process.
    And finally, I join Mr. Stokes in thanking the staff, 
particularly Allen Freemyer and Dan Smith of the Majority staff 
and John Lawrence of the Minority staff, for their great help 
in putting this together and moving this process forward.
    Again, Mr. Chairman, thank you very much for the 
opportunity to testify, and we look forward to any questions 
you all may have.
    [Statement of Hon. Rob Portman follows:]

 Statement of Hon. Rob Portman, a Representative in Congress from the 
                             State of Ohio

    Thank you, Mr. Chairman, Mr. Faleomavaega, and Members of 
the Subcommittee for holding this important hearing today and 
giving me the opportunity to testify. I want to thank my 
colleague, Mr. Stokes, the original sponsor of the legislation, 
for his leadership on this project. I also want to thank the 
other Members, experts and supporters of this legislation, some 
of whom have joined us today.
    H.R. 1635 was introduced on May 15 and now has the 
bipartisan support of 81 cosponsors. I understand this 
legislation also has the support of the National Park Service 
and the National Parks and Conservation Association.
    Specifically, the bill would do three things: First, create 
a National Underground Railroad Freedom Network from all 
existing units and programs of the National Park Service that 
pertain to the Underground Railroad, historic buildings, 
interpretive centers, research facilities, community projects, 
and activities directly related to the Underground Railroad, to 
commemorate and honor the history of the Underground Railroad. 
Much of what we know about today has been handed down through 
oral traditions over the years. And, as a recent National Park 
Service study indicated, some of the tangible evidence is in 
danger of being lost forever.
    Second, it would require the Secretary of Interior to 
produce and disseminate appropriate educational materials, such 
as maps, handbooks, interpretive guides, or electronic 
information; enter into cooperative agreements to provide 
technical assistance to facilities with a verifiable connection 
to the Underground Railroad; and create a uniform, official 
symbol for the national network and issue regulations for its 
use.
    Third, it would strongly encourage public-private 
partnerships that we should be promoting in a balanced budget 
environment. No funds are authorized except a small amount to 
coordinate the network, offer technical assistance and place 
plaques on network sites.
    I think this legislation will also help to foster a spirit 
of racial harmony and national reconciliation. Just as the 
Underground Railroad bridged the divide of race, religion, 
sectional differences, and nationality and joined people in 
common purpose, so can this bill. The powerful, and largely 
untold, stories of the brave men and women of the Underground 
Railroad can inspire us--even today--about racial cooperation 
and reconciliation, about determination and courage.
    Like so many of us, I have a personal connection to the 
Underground Railroad. The family home of my namesake and 
grandfather, who died last year, was a Station on the 
Underground Railroad. His great, great-grandparents were 
Quakers and abolitionists who lived in a farmhouse near West 
Milton, Ohio that harbored slaves who sought freedom. And many 
of the prominent figures the Underground Railroad have 
connections to my district I represent in the Greater 
Cincinnati area. Levi Coffin, another Quaker, was active as a 
conductor and was often called the ``President'' of the 
Underground Railroad. Harriet Beecher Stowe, another 
Cincinnatian, wrote Uncle Tom's Cabin, which helped galvanize 
anti-slavery forces in the 1850's.
    I'd like to say a special thanks to my friend and fellow 
Cincinnatian, Ed Rigaud, who will be speaking later this 
morning, and has helped me to understand and appreciate the 
significance of the Underground Railroad. Ed is leading an 
effort to establish a National Underground Railroad Freedom 
Center, funded largely through private efforts, and located in 
Cincinnati on the banks of the Ohio River--the dividing line 
between free and slave States. I would also like to recognize 
Iantha Gantt-Wright with the National Parks and Conservation 
Association, who will also be testifying. She provided us with 
a great deal of input throughout the process. Finally, I wish 
to thank Allen Freemyer and Dan Smith of the majority staff, 
and John Lawrence of the minority staff, for their assistance.
    Thank you, Mr. Chairman, for this opportunity to testify. I 
would be happy to answer any questions.

    Mr. Hansen. Thank you. I appreciate your testimony. Do any 
of the members of the Committee have questions for our 
distinguished panel on what I consider a very laudatory and 
reasonable piece of legislation?
    Now you know where I am coming from. Let us go to the next 
one. Mr. Duncan.
    Mr. Duncan. I don't have any questions, Mr. Chairman, but I 
would simply like to say that I, too, support this legislation, 
and Mr. Stokes has helped me on several occasions and is one of 
our finest members. And I am pleased that my friend Rob Portman 
is helping to lead the charge on this, because this is 
legislation that should be bipartisan in nature. And I just 
want to thank both of them for being here with us today. Thank 
you very much, gentlemen.
    Mr. Stokes. Thank you.
    Mr. Hansen. Any other statements from members of the 
Committee?
    Mrs. Cubin. Mr. Chairman.
    Mr. Hansen. The gentlelady from Wyoming.
    Mrs. Cubin. Mr. Chairman, I certainly am impressed that you 
are impressed, and I do support this bill. And if I am not a 
co-sponsor, this is how much I support it, I would like to go 
on the bill.
    Mr. Hansen. 93 here.
    Mr. Stokes. 93, thank you.
    Mr. Hansen. Why don't we just mark it up and forget the 
rest of this nonsense.
    If our colleagues would like to join us on the dias, we 
would be happy to have you. We know you are both very, very 
busy with other things, but we would love to have you join us 
if you would.
    Mr. Stokes. Thank you, Mr. Chairman.
    Mr. Hansen. We will turn to our first panel, Denis P. 
Galvin, Acting Deputy Director of National Park Service. We are 
always grateful to have Mr. Galvin with us. And Eluid--if I am 
pronouncing that wrong, I apologize--L. Martinez, Commissioner 
of Bureau of Reclamation. We are grateful to have both of you 
gentlemen with us. And, Mr. Galvin, we will start with you, 
sir. Now we are going to go to time. Is that okay?
    Mr. Galvin. That is fine, Mr. Chairman.
    Mr. Hansen. All right, we all know the rules. It is like a 
traffic light, green you start, yellow you wrap up and red I 
gavel you down. Is that fair?
    Mr. Galvin. That is fair.
    Mr. Hansen. All right, 5 minutes.
    Mr. Galvin. I have----
    Mrs. Cubin. Mr. Chairman.
    Mr. Hansen. Actually, hold on just a minute. The gentlelady 
from Wyoming.
    Mrs. Cubin. Mr. Chairman, I have an opening statement.
    Mr. Hansen. If you will suspend, we will turn to the 
gentlelady from Wyoming.

 STATEMENT OF HON. BARBARA CUBIN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF WYOMING

    Mrs. Cubin. Thank you. And thank you, Mr. Chairman, for 
holding this hearing.
    H.R. 1718 is the result of 5 years of dedication and hard 
work by the Cody Chamber of Commerce, by the Cody Economic 
Development Council to transfer 190 acres of Federal land to 
the ownership of Park County, Wyoming.
    I also extend a special thanks to Paul Hoffman, the 
Executive Director of the Cody Chamber of Commerce, for his 
unwavering commitment for the past 5 years in getting this 
matter resolved.
    The land to be transferred is currently in public 
ownership, more specifically, that of the Bureau of Land 
Management--excuse me, Bureau of Reclamation. The Bureau has 
completed its withdrawal review of this land and has done 
extensive environmental testing, archeological and cultural 
resource studies. For this I commend them. The State Historic 
Preservation Office has reviewed and, through the Bureau of 
Land Management, completed a cadastral survey--it has something 
to do with cadaver--of the land to be transferred.
    All wetlands and lands with potential recreation, wildlife 
and water management significance have been surveyed out of the 
area recommended for disposal, and that land will be retained 
by the Federal Government under the Bureau of Reclamation 
management.
    Through the General Services Administration, the Bureau of 
Reclamation recommends that all 190 acres be transferred.
    BLM, of course, would be the logical Federal agency to 
administer the current leases, but it has formally confirmed 
that it does not want to have the property under its 
management.
    Mr. Chairman, this property, when transferred to Park 
County, will help ensure the economic stability of many 
businesses that currently hold leases on the property. Most of 
the acreage has excellent development potential as an 
industrial area, but the details of its use would be left to 
the discretion of the people of Park County, Wyoming.
    The Bureau of Reclamation has refused to issue new leases 
for the past 5 years and has not allowed expansion of existing 
leases. This is definitely stifling the economic expansion of 
this area. The area manager for the Bureau has had a letter on 
his desk to the GSA asking for the property to be turned over, 
but as yet it has not been sent. As a matter of fact, it has 
been stated that the Bureau of Reclamation has been withholding 
transfer to the GSA pending this legislation. The interesting 
thing was that letter was sent three months before the 
legislation was filed.
    I am hopeful that my colleagues in the House will see the 
importance of conveying this Federal property, property that is 
no longer needed or wanted by the Federal Government, but is 
significant to the local entities that will directly benefit 
from it.
    It is my understanding that the Bureau of Reclamation has 
some concerns regarding this bill. Specifically, the Bureau is 
looking to reap the rewards of selling the property to a 
private entity. However, to this point the Bureau of 
Reclamation has not demonstrated it was interested in making 
any money for the Nation's taxpayers. As I mentioned before, it 
has not issued any new leases for the past 5 years and is not 
allowing any extension or expansion of existing leases.
    I believe another point must be brought forward. Although 
it is very difficult to document, I am fairly sure of the fact 
that the taxable revenue brought about by economic growth, 
which will be realized after the transfer of the property to 
the county, will outweigh the nominal $10,000 per year 
taxpayers are now making on leases on the property.
    An independent consulting team analyzed the North Cody area 
and two other potential industrial area sites in Cody last 
fall. They concluded it would cost about $13,600 per acre to 
bring the North Cody area up to marketable standards, that is 
for appropriate water, sewer and other infrastructure. Not all 
190 acres of the property are marketable. If the Federal 
Government insists on receiving fair market value for the 
property, many of the improvements will never be made.
    Through the GSA, the Bureau of Reclamation--oh, wait, I 
said that. Excuse me.
    This property is not pristine. It has no scenic, 
recreational or environmental values. Park County is made up of 
over 4 million acres. Eighty one point nine percent of those 
acres belong to the Federal Government. I would like to repeat 
that. Over 80 percent of this county belongs to the Federal 
Government, which means that the schools, the cities, the towns 
and counties cannot benefit from property taxes on 80 percent 
of the land in the county. That is what makes it so much more 
important that the Federal Government move along in their 
process and dispose of this property as quickly as possible.
    The potential for growth in the county is severely limited 
by the fact that the Federal Government has not moved on the 
action that they themselves said was important, that is that 
the land should be disposed of from Federal ownership.
    The community supports this project in a variety of ways. 
In the Park County Land Use Planning process and the Cody 
Master Plan process, the community has said the focus should be 
on commercial development near or within existing towns. North 
Cody has an industrial history and this proposal makes the most 
sense from a viewshed perspective. It is the least visible area 
from the town's major entryways.
    Cody, Wyoming, is the east entrance to Yellowstone National 
Park. Understanding and knowing that allows us to realize that 
one of the most important things on the minds of the people who 
live in Park County and in Cody, Wyoming, is to maintain the 
pristine area. Tourism is their biggest industry. They 
certainly don't want any industrial development where it would 
harm the tourism industry.
    Over the past 4 years there have been a significant number 
of front page stories about this project, and neither the Cody 
Chamber of Commerce or my office has ever received one negative 
comment regarding this project.
    Mr. Chairman, I will work in cooperation with the GSA to 
resolve as many of these concerns as possible before the bill 
goes to markup. I continue to believe that the taxpayers of 
this Nation will be better served through the transfer of this 
property to Park County and the local economic interests will 
be better served when this property is out of Federal lands. I 
commend this legislation to my colleagues and urge their 
support for its prompt enactment.
    This concludes my comments.
    [Statement of Hon. Barbara Cubin follows:]

Statement of Hon. Barbara Cubin, a Representative in Congress from the 
                            State of Wyoming

    Thank you Mr. Chairman for this opportunity to speak today, 
and the Subcommittee's efforts to schedule this hearing.
    Jackson Hole, Wyoming is one of the most beautiful and 
unique areas of our Nation. Over 3 million visitors per year 
come to hike, camp, ski, and sightsee amidst the grandeur of 
the Teton range and the winding Snake River in Grand Teton 
National Park and the Greater Yellowstone area beyond.
    Many wildlife species such as moose, bear, eagles, and 
trumpeter swan make the valley their home, while the largest 
elk herd in the lower 48 states annually migrates through it to 
winter on the wildlife refuge at its southern end.
    While much of the valley is protected in perpetuity by 
Federal ownership, some of the most valuable wildlife habitat, 
migration routes, and scenic vistas remain in private ownership 
as working ranch lands.
    Conservation groups in Jackson Hole and around the country 
have worked for years to help protect these ranches from 
development through the use of scenic easements and other means 
and are to be commended for their good work.
    The concept of preserving and protecting parts of the Teton 
Range and Jackson Hole date from the time settlers moved into 
the valley in the late 1800s. In January 1929 the U.S. Senate 
reported on a bill to establish Grand Teton National Park and 
stated:
        The Teton range presents the most profoundly impressive view in 
        America. It is a gift to the nation and posterity in which the 
        people of Wyoming may be proud, and the wilderness surrounding 
        them may be preserved in their natural state for the benefit 
        and enjoyment of the people of these United States and future 
        generations to come.
    In 1950, the Act establishing Grand Teton National Park allowed the 
continuation of grazing privileges within the boundaries of the new 
park for the life of the designated heirs of the current holders of 
grazing permits.
    Early management of the Park determined that managing cattle in a 
concentrated area with irrigated grass was less destructive to the 
resource and less intrusive to the visiting public than random grazing 
throughout the Park.
    Mr. Chairman, the purpose of my legislation, H.R. 708, is not about 
granting special grazing rights; it is about doing the right thing to 
maintain the scenic wonderment that encompasses this magnificent area 
and keep the area open for wildlife, especially migratory elk.
    This pristine land obviously comes with a price tag. Real estate 
prices have skyrocketed; and intense development pressure has occurred 
because of this fact.
    Through this legislation I pledge to work in cooperation with 
officials from Grand Teton National Park to resolve this issue. I know 
that all parties involved in this issue are striving to reach the same 
goal: maintain the scenic beauty that those of us who have been 
fortunate enough to spend time in the Tetons will continue to enjoy the 
Park for a long time to come.
    Mr. Chairman, I am eager to work with my colleagues both here in 
the House and the Senate, along with Grand Teton National Park 
Superintendent Jack Neckels, to bring a resolution to this unique 
situation.
    I believe the changes to the legislation proposed by the Park 
Service make sense, and I will be happy to incorporate them in the 
legislation during the markup of the bill.
    Mr. Chairman that concludes my remarks.

    Mr. Hansen. I thank the gentlelady.
    Mr. Galvin, you are recognized for 5 minutes.

STATEMENT OF DENIS P. GALVIN, ACTING DEPUTY DIRECTOR, NATIONAL 
                          PARK SERVICE

    Mr. Galvin. Mr. Chairman, I have statements on three of the 
bills before the Subcommittee this morning, and I will simply 
submit them for the record and summarize my remarks and the 
Administration's position on each of those bills.
    H.R. 1635 establishes the National Underground Railroad 
Network to Freedom. We strongly support this bill. We are 
pleased to be part of this program to commemorate, preserve and 
interpret this important and inspiring chapter in American 
history. Congressman Stokes adequately and eloquently outlined 
the history of this chapter of American history. It is not, as 
some people believe, simply a trail. It is a regional story 
that touched many States, that touched many races, that indeed 
is international in character and the bill references that.
    The bill that we find here today, as Congressman Portman 
said, is the result of grass-roots work extending in many of 
these communities and people who owned these sites that 
represent this important historic story to our country. And you 
will be hearing from some of them later this morning.
    The study was delivered to Congress in February 1996. 
Subsequently we have produced a brochure on the Underground 
Railroad and a handbook is under production. The bill 
authorizes the Secretary to enter into memorandums of 
understanding. It is not a high-cost bill. As you pointed out, 
it does not require new units of the National Park System. It 
simply authorizes the Secretary to cooperate with these people 
in marking these sites and interpreting them.
    The second bill I would like to discuss is H.R. 755, a bill 
to amend the Internal Revenue Code of 1968 to allow individuals 
to designate any portion of their income tax overpayments and 
to make other contributions for the benefit of the National 
Park System. As Mr. Duncan mentioned, the needs of the park 
system are great, particularly in the area that the bill 
focuses on with respect to infrastructure, rehabilitation of 
historic structures and reconstruction and rehabilitation of 
roads.
    Regrettably, we must, because of the precedent-setting 
nature of the bill and the potential for lengthening the 
Federal tax form, express opposition to H.R. 755. There are 
probably scores of federally funded activities who could also 
benefit from such a treatment and would want their own separate 
line on the 1040.
    We understand that this Subcommittee does not have primary 
jurisdiction in this matter. My prepared statement indicates, 
Mr. Chairman, the many uses that could be used if this tax 
checkoff became law. As I said, principally they are in the 
area of rehabili-

tating infrastructure, although there are important natural and 
cultural resource preservation issues that could also be funded 
with the revenue from this tax checkoff.
    I noted in Mr. Duncan's statement he estimated over $200 
million of revenue would come from this. That in essence is 
larger than the recent recreation fee demonstration project 
authorized by the Congress where we estimate revenues of about 
$140 million over 3 years.
    Finally, Mr. Chairman, I have a statement on H.R. 708, a 
bill to require the Secretary of the Interior to conduct a 
study concerning grazing use of certain land within and 
adjacent to Grand Teton National Park. We recommend enactment 
of this legislation, if amended to address our concerns as 
outlined below.
    And we have in our prepared statement three amendments that 
are not major but simply focus and somewhat broaden the scope 
of the study. We believe, as you mentioned in your opening 
statement, Mr. Chairman, in the West, and particularly in this 
valley, we have intense pressure to develop, to in essence 
subdivide, some of these important open spaces represented by 
these traditional uses of the land.
    We support this study because we believe it provides an 
opportunity to engage in an important discussion in this, 
indeed, world-class scenic valley and to ponder the question of 
these traditional land uses and their, indeed, importance to 
the history of this park. The grazing that traditionally was 
done in this valley led to the dude ranch industry that led to 
the creation of Grand Teton National Park. So all of these 
stories are importantly intertwined.
    We strongly recommend enactment of this legislation which, 
as I said, simply authorizes a study. And we have been working 
with all the local interested parties to see that their views 
are represented as we do the study. We do recommend an 
amendment that would extend these grazing privileges until such 
time as the recommendations in the study are implemented as 
opposed to the way the legislation is currently written that 
would only extend them until the study is submitted.
    That concludes the summary of remarks, Mr. Chairman. As I 
said, I will submit our prepared statement. I would be happy to 
answer any questions of the subcommittee.
    [Statement of Denis Galvin may be found at end of hearing.]
    Mr. Hansen. Thank you, Mr. Galvin.
    Mr. Martinez, we are grateful to have you with us. We will 
turn to the time to you for 5 minutes, sir.

     STATEMENT OF ELUID MARTINEZ, COMMISSIONER, BUREAU OF 
                          RECLAMATION

    Mr. Martinez. Thank you, Mr. Chairman. Thank you for the 
opportunity to provide the subcommittee with the 
Administration's views on H.R. 1718, a bill that would provide 
for the conveyance of 190.12 acres of Federal land in Park 
County, Wyoming. With your permission, I would like to 
summarize my remarks and have the full text of my prepared 
statement entered into the record.
    The Administration believes that the disposal of the 
subject property should be handled by the General Services 
Administration consistent with the Federal Property 
Administrative Services Act of 1949 and accordingly opposes 
H.R. 1718. The Bureau of Reclamation no longer needs the parcel 
of land. Reclamation and the Bureau of Land Management have 
determined that the property is not suitable for return to the 
public domain. Reclamation supports the intent of this 
legislation.
    Mr. Chairman, my prepared statements contain some items of 
concern with respect to the legislation. There is an issue of--
we believe that if conveyance does occur it should be through a 
quit-claim deed, that there should be fair market value 
determined for the property. I am advised that the GSA Property 
Disposition Act requires a fair compensation, that if the 
property is transferred there should be no oversight on the 
part of the Secretary of the Interior and that the 
environmental liability clause should be stricken. I am advised 
that the other Federal laws adequately address and protect the 
Federal interest in these issues.
    My prepared statement contains additional items of concern. 
The Bureau of Reclamation would welcome the opportunity to work 
with the Subcommittee on amendments to this legislation. And in 
summary, the Administration opposes the legislation but 
recommends that the Committee allow the parties to work with 
GSA to dispose of the property in a way that will facilitate 
economic development in Park County consistent with the GSA 
Property Act.
    Mr. Chairman, this concludes my remarks. I will be happy to 
answer any questions you might have.
    [Statement of Eluid Martinez may be found at end of 
hearing.]
    Mr. Hansen. Thank you, Commissioner. Questions for this 
panel? Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. The only question I 
might have is for Mr. Galvin. I notice that you said your 
opposition to H.R. 755 was regrettable or reluctant. And I 
think I understand where you are coming from, but just for the 
record, you do--the Administration has taken the position that 
this might require that the Federal tax form be lengthened and 
made over-complicated, but you do realize that 41 States have 
similar checkoff funds and have been able to limit them and 
keep their tax forms much simpler even than the Federal tax 
code. And what we are talking about has worked successfully 
throughout this country.
    Mr. Galvin. Indeed, I do. I live in a State that has, I 
believe, six or eight tax checkoffs and is able to accomplish 
it.
    Mr. Duncan. All right, thank you very much.
    Mr. Hansen. The gentlelady from the Virgin Islands. The 
gentlelady from Wyoming.
    Mrs. Cubin. Thank you, Mr. Chairman. Before I start 
questioning the panel, I have an opening statement on H.R. 708, 
which is the study that Mr. Galvin referred to. So rather than 
read that, I will just submit it for the record.
    Mr. Hansen. The lady is recognized for the opening 
statement and to question the panel.
    Mrs. Cubin. Thank you. Mr. Martinez, I would like to start 
off by saying that I, too, would like GSA to dispose of this 
property going through all of the proper channels. The reason 
the legislation is here is because the Bureau of Reclamation 
has not turned the property over to the GSA so that they can do 
that. And this has been going on for 5 years. So my reflex 
reaction to your statement that you would like to work with the 
Subcommittee to amend the bill is nice and it is laudatory and 
I appreciate that, however my wish would be that you would work 
with your managers to get the process completed to get the 
property owned by GSA so that they can properly dispose of it 
through the proper channels.
    In your statement you mention that the property should be 
turned over to the GSA. And I am going to ask three questions 
here, so if you can remember them, good. I couldn't, if you 
want to take notes. But why has it taken the Bureau of 
Reclamation so long to turn the property over for disposal? 
This legislation was introduced in May of this year, but the 
issue of disposing of this property has been around for a long 
time. I have a copy of a February 1997 memo to the area manager 
that informs him that this qualifies as excess property. Could 
you please explain to the Subcommittee why the paperwork that 
will turn the property over to GSA is still on the Bureau of 
Reclamation manager's desk? And when can GSA expect the SF-118?
    Mr. Martinez. Mr. Chairman, ma'am, if I may, I can't--I 
will get that answer for the record, but let me raise an issue 
which I think is an issue that was raised to my attention and I 
think that might be of some importance. It is my understanding, 
and subject to correction, that if a property is transferred to 
GSA, they will go through the normal proceedings, which does 
not necessarily result in the fact that the county will acquire 
the property, because their procedures, as I understand, result 
in a procedure which is sale of property to the highest bidder. 
So unless something is worked out, it might not follow that the 
county will acquire the property.
    Bureau of Reclamation is of the opinion that the intent of 
this legislation that the county acquire the property has merit 
for the reasons that you have raised and I, reading in between 
the lines, believe that probably that has been one of the 
reasons why the transfer has not occurred. But I am prepared to 
direct to my area manager to move the paper forward.
    Mrs. Cubin. I do appreciate that, Mr. Martinez. When I 
first began working on this legislation, it was understood that 
the Bureau would be willing to dispose of the property at no 
cost to the local community. I think that certainly--that was a 
result of the fact that a lot of money has to be put into the 
property before it can be developed and Bureau of Reclamation 
didn't want to do that, isn't in the position to do that.
    And also I was under the understanding that when we were 
working with the State office of the Bureau of Reclamation that 
it would be turned over at no cost. Can you tell me why the 
Washington office and the Bureau disagrees with the State 
office on this?
    Mr. Martinez. Mr. Chairman, Madam, I will be real frank. I 
do not disagree with that position, however there is a Property 
Disposition Act that the GSA has that requires just 
compensation. And there is a value to that property. And the 
issue is whether there should be a fair price or compensation 
for the property. And I do realize that some of that value is 
inherent in the fact that the county and the individual who 
developed the property have developed it and caused the 
property value to go up.
    Mrs. Cubin. How many properties--this is industrial 
property. How many other properties does the Bureau of 
Reclamation have under its management that are industrial 
sites?
    Mr. Martinez. I couldn't respond to that, but we administer 
millions of acres across the West, and I imagine we have quite 
a few of them. And I would be glad to provide that information 
for the record. In this particular area my understanding is we 
have six or seven individuals leasing property.
    Mrs. Cubin. Would it be fair to say that managing 
industrial property by the Bureau of Reclamation is an uncommon 
thing and that managing industrial property is not in the 
scope, if you will, of the Bureau of Reclamation?
    Mr. Martinez. Mr. Chairman, ma'am, I would like to get out 
of that business. It is not--I don't think we should be 
managing those properties.
    Mrs. Cubin. In your testimony you made a couple of indirect 
references to the economic benefits this area has to the city 
of Cody, and you also mention your concern about jeopardizing 
the existing leases that are there. Could you tell me why the 
Bureau has refused to expand leases over the past 5 years or 
issue any new leases in that area?
    Mr. Martinez. Mr. Chairman, ma'am, I was not aware of that 
issue, and I will be glad to respond to the record.
    Mrs. Cubin. Is it fair for me to say that you think the 
best use of the property is industrial use?
    Mr. Martinez. For that particular property in question, I 
believe so. It has been industrial use, some of it, since the 
1950's.
    Mrs. Cubin. Thank you very much, Mr. Martinez.
    Mr. Hansen. The gentleman from Nevada, Mr. Gibbons.
    Mr. Gibbons. Thank you, Mr. Chairman. Mr. Galvin, if I made 
a presumption here that our National Park System over the last 
few years has seen an increasing need of revenues for wear and 
tear on it, that would be within the scope of what you would 
agree to, would it not be?
    Mr. Galvin. Yes, it would.
    Mr. Gibbons. Do you believe that additional funding that 
could be provided through this Internal Revenue Code change 
would be helpful to the park system?
    Mr. Galvin. Yes, I do.
    Mr. Gibbons. Yet you are still opposed to it?
    Mr. Galvin. We are opposed to it. The Administration is 
opposed to it because of the precedent. As I said in my 
prepared statement it points out that there are probably a lot 
of other Federal programs that don't come under my jurisdiction 
but could benefit from a tax checkoff. And I think the basis of 
the Administration's position is in that precedent, not denying 
the needs that exist in the National Park System, but simply 
the precedent of a tax checkoff is the basis of the opposition.
    Mr. Gibbons. Well, see, my understanding is this is not 
Federal money. This is money coming back to an individual which 
is being redonated back in an earmarked fashion for a specific 
program, not at the will of the Administration but at the will 
of the taxpayer whose money that is. So it is like a charitable 
contribution, a gift to that individual or to that park system.
    Mr. Galvin. I share that understanding. I believe in 
reading the bill that it is, in effect, money that people would 
get as part of a tax refund that is being checked off here. So, 
as Mr. Duncan said, it has no negative effect on the deficit. 
Nevertheless, the precedent, I believe, causes anxiety in the 
Administration.
    Mr. Gibbons. Thank you, Mr. Chairman.
    Mr. Hansen. Mr. Stokes.
    Mr. Stokes. No questions.
    Mr. Hansen. Mr. Portman.
    Mr. Portman. No questions.
    Mr. Hansen. I will recognize the gentlelady from Wyoming, 
Mrs. Cubin.
    Mrs. Cubin. Thank you, Mr. Chairman. Just one last 
statement for this panel. I wanted to thank Mr. Galvin for his 
kind remarks regarding the bill for the open spaces in Grand 
Teton, the grazing study. I appreciate your support and 
certainly want to work with you on those amendments that you 
propose. I think they certainly do improve the legislation.
    I also wanted to recognize Kit Mullen, who is one of the 
supervisors of the Grand Teton National Park. Thank you all for 
being here.
    Mr. Galvin. Thank you very much.
    Mr. Hansen. We thank the panel for being with us. We will 
excuse you and turn to our second panel.
    Mr. Galvin. Thank you, Mr. Chairman.
    Mr. Hansen. Our second panel is Iantha Gantt-Wright, 
Diversity Outreach Manager, National Parks and Conservation 
Association; Charles L. Blockson, Curator, Charles L. Blockson 
Afro-American Collection, Temple University; Edwin Rigaud, 
Executive Director, Underground Railroad Freedom Center; and 
Cathy D. Nelson, State Coordinator, Ohio Underground Railroad 
Association. If we could ask you folks to come up and take your 
places, we would appreciate it.
    I ask unanimous consent that the statement of Senator 
Olympia Snowe be incorporated in the record. Is there 
objection? Hearing none, so ordered.
    [Additional material submitted by Senator Snowe may be 
found at end of hearing.]
    Mr. Hansen. Have we got everybody in place? Let me ask you, 
can you folks make it in 5 minutes in your testimony? Okay, I 
appreciate that. That is kind of you to agree with this. Iantha 
Gantt-Wright, I hope I am pronouncing that right.
    Ms. Gantt-Wright. That is right.
    Mr. Hansen. We will give you the first 5 minutes. And just 
move across the panel.
    Ms. Gantt-Wright. Okay, thank you.
    Mr. Hansen. Thank you.

 STATEMENT OF IANTHA GANTT-WRIGHT, DIVERSITY OUTREACH MANAGER, 
          NATIONAL PARKS AND CONSERVATION ASSOCIATION

    Ms. Gantt-Wright. Thank you. Good morning, Mr. Chairman. 
Once again, my name is Iantha Gantt-Wright, and I am the 
Cultural Outreach Manager for the National Parks and 
Conservation Association. I would like to take the time to 
thank you and the Committee for the opportunity to testify on 
behalf of H.R. 1635, the National Underground Railroad Network 
to Freedom bill.
    As a representative of the National Parks and Conservation 
Association, I would like to note for the record our full 
support for H.R. 1635 and for sufficient funding to implement 
it. We believe that this bill encourages the preservation, 
commemoration and interpretation of the hundreds of route 
sites, people, programs, activities and events that made up 
America's historic Underground Railroad. We commend 
Representatives Stokes and Portman for their leadership on this 
measure, and we greatly appreciate your positive response to 
it.
    Mr. Chairman, I have had the pleasure of working on this 
issue now for about 2 years, and it is really close to my 
heart. And given the level of support we have seen from around 
the country, it is close to the hearts of many Americans. NPCA 
has received hundreds of phone calls and letters from 
Washington DC to Washington State and from every corner of 
America as people learn about this bill. Blacks, whites, 
Hispanics, Native Americans, Christians, Quakers, Jews and many 
others have joined us in support of this bill.
    Evidence of this broad and diverse enthusiasm for the bill 
is here in the room today. I would like to note for the record 
that here supporting this bill is the Ohio Underground Railroad 
Association [they came in on a bus yesterday], the Friends of 
Freedom Society, the National Underground Railroad Association 
based in St. Louis. We also have here, Mr. Chairman, from Santa 
Barbara, California, the great granddaughter of Levi Coffin, a 
well-known conductor of the railroad. We have here today a 
representative of the tourism industry from Kansas City, a 
member of the advisory committee that worked on the study, and 
I am told that we have individuals here from Michigan, 
Illinois, New York, Maryland and Pennsylvania.
    Mr. Chairman, my reason for acknowledging these individuals 
and organizations is twofold. First, I think it is really 
crucial that the CCommittee see the ordinary people who have 
been working for many years to preserve this powerful story. It 
is through the persistence, fortitude, faith and courage of 
these wonderful and committed individuals and many people just 
like them that this story has remained alive for so long. The 
spirit of the railroad is alive in them today. Look around this 
room, and what you see is you see the faces are many colors, 
the backgrounds just as diverse, but the motives are basically 
the same, the same as they were during the era of the railroad, 
to promote freedom, justice and the true goodness of the 
American spirit.
    Many of the people that you see here today are owners and 
operators of Underground Railroad sites. They open their hearts 
and their homes to the public, not because they get paid to do 
it but because they want to. The Network to Freedom bill would 
show them that they are not alone in this effort and that our 
government also realizes the significance of this chapter of 
American history. Second, I believe that it is important for 
the Committee to see firsthand the vastness of the 
opportunities for interpreting this amazing story. The people 
here today and what they represent offer re-

sources that would be available to the Park Service for 
inclusion in this network.
    The Underground Railroad spanned 29 States, Canada, Mexico 
and the Caribbean. Its railways were back roads, swamps, caves, 
forests, rivers and streams, and the modes of transportation 
just as diverse. The dilemma for those wishing to commemorate 
and establish this was to figure out how to best do it so that 
the American public would experience and benefit from it. The 
advisory committee responsible for the study realized that the 
true story of the railroad cannot be told by one site, trail or 
place but rather through networks of sites, structures, 
programs, museums, artifacts, commemorative activities bound 
together through a variety of partnerships among different 
levels of government, international and all aspects of private 
sector.
    As an African American, I grew up not knowing the 
intricacies of the resistance to slavery. I spent most of my 
life believing that my ancestors were not courageous enough to 
fight for freedom. Today, because of my involvement in this 
experience, I know better. This network will provide for our 
youth a better understanding of the institution of slavery, the 
progress we have made as a country, and more importantly the 
opportunity to visit a time in our history when many of us put 
aside our differences and awakened to the fact that if one of 
us was enslaved we were all enslaved. H.R. 1635 would foster 
the projects, programs and materials to bring the history, the 
message of the railroad to all Americans.
    It is important to stress what the legislation won't do. It 
won't create a new park. It would be too complex and diffuse 
and unmanageable. It is not a heritage area. It would not 
elevate any site or project or activity above others, but would 
treat all equally and would allow great flexibility in 
additions and changes to the network as the program proceeds.
    Finally, Mr. Chairman, the National Park System brings to 
life the history of the joys and pains of a nation striving to 
grow and progress. The Underground Railroad is a piece of that 
history that must be passed on to children and adults alike. 
This bill would create the means for doing that. It will make 
the connections across borders, social and racial lines and 
time to create a visible and identifiable commemoration that 
can engender the spirit of freedom and national reconciliation 
in our homes, on our jobs and throughout the halls of Congress. 
What better time is there than now?
    This concludes my testimony. I will be happy to answer any 
questions.
    [Statement of Iantha Gantt-Wright may be found at end of 
hearing.]
    Mr. Hansen. Thank you very much. Mr. Blockson, we will 
recognize you, sir.

STATEMENT OF CHARLES L. BLOCKSON, CURATOR, CHARLES L. BLOCKSON 
          AFRO-AMERICAN COLLECTION, TEMPLE UNIVERSITY

    Mr. Blockson. It is indeed an honor for me to return to 
Washington DC.
    I became involved with the Underground Railroad--52 years 
ago. When I was a boy of 10 years old my grandfather was 
singing a song, ``There's a highway to heaven,''and ``Walking 
up the King's highway.'' I said grandpop, what are you singing 
about. He said the Underground Railroad--my father, your great 
grandfather James and others escaped from the Underground 
Railroad from Seaford, Delaware, through Pennsylvania into 
Canada. And so I became more or less baptized in the 
Underground Railroad from the age of 10 and have been following 
it ever since.
    I have traced my ancestry in Canada from Ontario to Nova 
Scotia. My great grandfather returned to Delaware from Canada 
after the Civil War. For more than 35 years I have researched, 
collected and traveled throughout the United States, and the 
greatest opportunity came in 1984 when I had the opportunity to 
write the cover story for the National Geographic magazine, 
July issue, a story that more or less popularized the 
Underground Railroad at that time. I received scores of letters 
from all the country and various parts of the world about the 
Underground Railroad. I spoke in Denmark, Sweden, Brazil and 
other countries. They knew about the Underground Railroad.
    Condensing 300 years of history in 5 minutes is very 
difficult, nevertheless I also want to point out long before 
the National Park Service Underground Railroad Committee was 
formed, there was concern for preservation. To my astonishment 
as I traveled throughout, to the deep South--we must not forget 
the people from the South in the Underground Railroad--the 
Midwest and through Pennsylvania and New York State, every 
county, hundreds of counties I collected information from the 
local history for years and years. So I was able to visit these 
places.
    I was called to Quindaro in Kansas back in June 1988 when 
there was a problem pertaining to preservation of the 
nationally known Underground Railroad site Old Quindaro. They 
were more or less trying to fill it with some trash.
    I also was astonished and saddened, deeply saddened, that 
most of the known Underground Railroad sites in the Midwest 
where I traveled, in Kentucky, Michigan, Ohio and many counties 
in upstate New York and Pennsylvania and other places, that 
many sites in the African American community eliminated, 
demolished through urban renewal. You will also find that many 
of the best sites on this great study are the private homes. We 
must come up with something to help identify private homes.
    Let us begin with a short history of how all of this came 
about. Let us not forget our good friend, my good friend, Peter 
H. Kostmayer, who was the brainchild behind the study from 
Pennsylvania. In 1990, Representative Peter Kostmayer asked me, 
after reading the National Geographic article and one of my 
other books that I did on the Underground Railroad, was it 
possible to establish a committee to study the Underground 
Railroad. And finally I said yes. Representative Kostmayer said 
select four or five people and then I will contact their 
representatives of their States from Delaware, from Ohio, from 
Illinois, and other places. And as a result it was finally 
established, a committee. We met at a historical African 
American church, Mother Bethel A.M.E. Church in Philadelphia, 
where we had a press conference January 16, 1990.
    In order to deal with history, we must go back to the 
beginning, and as I move on it is important to know that people 
from the age of 99 to 9 seem--of all races seem to have an 
interest in the Underground Railroad. As late as last year, I 
took 35 school teachers from Washington DC in conjunction with 
the National Geographic from Buckstown, Maryland, Harriet 
Tubman's home, up through Delaware, Maryland, New Jersey, 
Pennsylvania to the Finger Lakes of New York State, the great 
New York State, stood over the grave of Frederick Douglas at 
Rochester and wept over the grave of Harriet Tubman in Auburn, 
New York. And later we went on to Niagara Falls and into 
Canada.
    I also want to point out that there were many people of all 
races, creeds and color. Let us not forget the spirit of 
Harriet Tubman, Frederick Douglas, Levi Coffin, the great John 
Brown, the Quaker Lucretia Mott, they chronicled the activities 
of the Underground Railroad, along with William Still, Chief 
Pontiac and Detroit Michigan. Long before the Underground 
Railroad was formed, during the time of George Washington, the 
Native American assisted not only in the Midwest but the deep 
South. Let us not forget the Native American, the children and 
adults.
    And as I move on, let us give credit to all of you who came 
today, from all over the country. Back in 1990, in the 
beginning, we had to agitate, agitate, agitate for this 
Committee here. For seven years, it did not come easy. As 
Frederick Douglas said, ``agitate, agitate, agitate.'' I am 
greatly pleased just to be here today, after all the trials and 
tribulations of having meetings around the country.
    And let us not forget people such as Vincent De Forest and 
Barbara Taggert and others on the National Park Service, and 
our own advisory committee, who worked to make this become a 
reality.
    We must also remember that the Underground Railroad was not 
a romantic episode. People died, people were arrested, people 
were taken back. We must commemorate, not commercialize. 
Recently groups have been springing up all over the country. 
The best people who know about the Underground Railroad are the 
local people in the various communities. The National Park 
Service must reach out to the historical societies and other 
areas around this country.
    And in closing, I would like to say to you in the spirit of 
the old black spiritual in connection with the Underground 
Railroad, ``Please don't let this harvest pass.'' Pass this 
bill. Give us the funding we need so that we today can walk 
upon this American earth in sisterhood and brotherhood. Thank 
you.
    [Statement of Charles Blockson may be found at end of 
hearing.]
    [Statement of Underground Railroad Advisory Committee may 
be found at end of hearing.]
    Mr. Hansen. Thank you. Cathy Nelson, you are recognized for 
5 minutes. Pull that mike as close to as you can get it, would 
you please. Thank you.

STATEMENT OF CATHY NELSON, STATE COORDINATOR, OHIO UNDERGROUND 
                      RAILROAD ASSOCIATION

    Ms. Nelson. Good morning. My name is Cathy Nelson from 
Columbus, Ohio. I am the founder and president of the Friends 
of Freedom Society and the State coordinator for the Ohio 
Underground Railroad Association commonly known as OURA. I am 
joined by 22 members of our grass-roots organization from Ohio 
and supporters from five States extending from Maine to 
California. We are all here today to show our support for H.R. 
1635, the National Underground Railroad Network to Freedom Act 
of 1997. We are also joined this morning by thousands of people 
whose faces you cannot see but voices we hear, those of our 
ancestors. They are the voices of the past whose determination, 
courage and sacrifices have spoken to us so we could bring 
their story to you.
    As State coordinator for OURA, I would like to take this 
opportunity to acquaint you with the efforts of our 
organization. OURA is made up of 12 regions representing the 88 
counties in Ohio. Each region has a coordinator who works with 
county agents to research, collect and record their local 
Underground Railroad history along with marking existing and 
nonexisting sites and structures.
    This has been a statewide initiative involving individuals 
young and old, black, white and Native American working 
together to reach out across the State of Ohio and regionally 
to develop interpretive programs and to operate local 
Underground Railroad museums. To date over 150 sites throughout 
Ohio have been researched, documented and photographed by 
county and regional coordinators.
    There is a crying need for this history to be told from 
multiple perspectives and not from one voice, which has 
traditionally been the case. H.R. 1635 gives long overdue 
recognition to this important piece of history. It allows for a 
more expansive and diverse approach to the telling of this 
story by creating a network to link the countless sites and 
structures that were a part of the Underground Railroad both 
nationally and internationally.
    Ohio, along with other participatory States, stand to 
benefit greatly through the passage of this bill. With 
sufficient appropriations necessary in carrying out the 
responsibilities of the Underground Railroad Network to 
Freedom, we hope this bill will provide for the creation of a 
national/international corridor program on both land and water 
encompassing the natural and cultural features associated with 
the Underground Railroad. In addition, we hope the Secretary 
will enter in cooperative agreements with non-profit 
organizations in research and in the production of historical 
information relating to the role of the Underground Railroad 
movement. In addition, we also hope that assistance to owners 
of documented Underground Railroad dwellings who at their own 
expense maintain on a daily basis the historical integrity of 
their properties while educating the general public of their 
significance in history.
    America is incomprehensible without understanding the 
institution of slavery and the resistance to it. The U.S. 
Government enacted the legislation that legalized slavery in 
this country, which lasted for over 250 years. Slavery was a 
war waged upon innocent men, women and children. The 
Underground Railroad was one of the effective resistances 
against that war. A movement cast in secrecy, the time has now 
come to reveal the historic deeds of those who fought against 
the inhumanity of this peculiar institution known as American 
slavery. Equally, it is now time for the Federal Government to 
take responsibility by seizing the opportunity to acknowledge, 
honor and preserve the people, places and events that launched 
this Nation's greatest social and moral endeavor, the 
Underground Railroad.
    With these and the recommendations from grass-roots 
organizations around the country and scholars alike, H.R. 1635 
can begin to develop a comprehensive understanding and 
inclusive approach to educate the global society of the 
significant contributions made by individuals who were diverse 
racially, politically, religiously, socially and economically.
    In conclusion, the Underground Railroad movement is a story 
of personal empowerment. It appeals to the better nature of 
humankind. In a sense, these ordinary people became the David 
who slew Goliath. They were the foot soldiers of resistance and 
change. These are the unsung heroes and heroines, both black, 
white and red, whose acts of conscience and courage are largely 
untold but were prepared to die for their beliefs. It is one of 
America's most powerful social movements.
    On behalf of the Friends of Freedom Society and the Ohio 
Underground Railroad Association, I would like to thank you for 
allowing me the opportunity to share our viewpoints with this 
committee.
    [Statement of Cathy Nelson may be found at end of hearing.]
    [List of attendees may be found at end of hearing.]
    Mr. Hansen. Thank you very much. Mr. Rigaud, we recognize 
you for 5 minutes, sir.

 STATEMENT OF EDWIN J. RIGAUD, EXECUTIVE DIRECTOR, UNDERGROUND 
                    RAILROAD FREEDOM CENTER

    Mr. Rigaud. Thank you, Mr. Chairman and members of the 
Subcommittee. My name is Ed Rigaud and I am the Executive 
Director of the National Underground Railroad Freedom Center in 
Cincinnati, Ohio.
    Three years ago, the Greater Cincinnati Region of the 
National Conference of Christians and Jews began an effort to 
create the National Underground Railroad Freedom Center. This 
will be a major interpretive center to open in 2002, and it 
will be located on the historic Ohio River in downtown 
Cincinnati. The Freedom Center desires to become a significant 
link in the National Underground Railroad Network to Freedom 
being established by H.R. 1635.
    Now let me briefly explain what we are setting out to do. 
Conceptually the Freedom Center is not a traditional museum. It 
is a museum of reflection which will attempt to touch the heart 
as well as the mind. We want visitors to relive the great 
Underground Railroad stories of courage and cooperation between 
the races and to understand the importance of the quest for 
freedom in America. We also want them to be stimulated to think 
about how this history can teach us to come together today 
across racial and ethnic barriers to preserve our liberties.
    So we also view the Freedom Center as an educational and 
cultural institution which will employ state-of-the-art 
technologies and the best minds to accomplish its mission of 
reconciliation. As one educational psychologist put it: ``I 
believe this project has more potential to create cross-racial 
reconciliation and collaboration than any national endeavor 
currently in process.''
    This legislation is important to the future success of the 
Freedom Center as well as all of the other Underground Railroad 
initiatives from four perspectives. First, the expertise of the 
National Park Service will be essential in helping our effort 
in Cincinnati and elsewhere to authenticate historic sites and 
explore appropriate ways to link those sites together in an 
official national network.
    Secondly, the National Park Service can help facilitate 
public/private partnerships that will minimize Federal 
financial commitments and maximize the visibility and 
integration of each site in the network. The Freedom Center, 
for example, is looking to raise $80 million in order to have a 
125,000 square foot facility, and the majority of the funds 
will be coming from private sources. In the future as we ask 
the private sector to take on increasingly meaningful roles in 
supporting our cultural institutions, it will be good to hold 
up the Freedom Center as a strong example of how such 
partnerships can be made to work. Obtaining the National Park 
Service technical expertise without having to spend scarce 
Federal dollars is the best of both worlds.
    Thirdly, the National Park Service will help the Freedom 
Center fulfill its distributive museum role. The Freedom Center 
is just one important piece of a larger network that needs to 
be integrated and given visibility so the story of the 
Underground Railroad is available to all Americans. Making 
information available about other sites and units throughout 
the country will enable interaction and communication between 
all sites. Through this cooperation, the overall story of the 
Underground Railroad can finally be communicated throughout the 
entire Nation.
    Finally, in our day when we see so many examples of 
divisiveness among our country's diverse races and cultures, 
there is an increased need for institutions that can help 
foster understanding, respect and cooperation between people of 
different races and backgrounds. When each element of the 
network, including the Freedom Center, becomes part of an 
overall National Underground Railroad Network to Freedom, it 
will be in a much better position to achieve its goals of 
commemoration, education and inspiration.
    So I ask for your favorable consideration of H.R. 1635. It 
gives the Underground Railroad sites visibility and unity. It 
promotes public/private partnerships and it is fiscally 
responsible. The uplifting stories of the Underground Railroad, 
in sharp contrast with the stark reality of slavery, can 
provide this entire country with a metaphor to shed light on 
the many issue confronting contemporary society. The powerful 
experiences from the Underground Railroad Network to Freedom 
should encourage everyone, perhaps for the first time, to have 
positive discussions about an otherwise painful past. This is a 
great way to underscore the precious value of freedom to all 
and emphasize the importance of preserving that freedom for all 
future generations.
    Thank you again, Mr. Chairman, for your kind consideration.
    [Statement of Edwin J. Rigaud may be found at end of 
hearing.]
    Mr. Hansen. Thank you. We appreciate the testimony of all 
the members of this panel. Now we will turn to the Members of 
Congress. You are recognized for 5 minutes for questioning of 
the panel. Mr. Duncan from Tennessee is recognized.
    Mr. Duncan. Well, let me--I have earlier said that I think 
this is a very worthwhile cause, and I want to say that I 
appreciate very much that in this time when we are all looking 
for funds for so many good causes that you are working so hard 
to make sure that the majority of these funds come from private 
sources. But thank you very much for being here with us today. 
Thank you.
    Mr. Hansen. The gentlelady from the Virgin Islands, you are 
recognized.
    Ms. Christian-Green. Thank you, Mr. Chairman. I also want 
to add my thanks to the panel and also to all of you who have 
come out to support this bill, and to thank you also for your 
efforts, which I am sure come at sacrifice to many of you to 
keep the story of the railroad alive.
    I would like to just ask one question just to probably 
allow you to elaborate, but let me ask, Ms. Gantt-Wright, 
having just read a book that my staff is tired of hearing me 
talk about, I am sure, the Comino Folk, which gives the 
eyewitness accounts of slavery in the Danish West Indies and 
Virgin Islands, and how much that book enriched my life from 
reading those accounts, I understand how important it is for us 
as African Americans to be able to relive and to come to 
understand in a more meaningful way the history and the story 
of the Underground Railroad. But to what do you attribute the 
widespread support that you say you have been receiving through 
phone calls to your offices?
    Ms. Gantt-Wright. I think you can attribute it to several 
things, but I think probably one of the most important is the 
Underground Railroad engenders in people something really 
powerful, especially in a time when we are really struggling 
with this issue of race. And many of the phone calls that we 
are getting are from people who have stories, who had families 
or ancestors who either were conductors of the railroad or they 
were enslaved individuals who passed stories down. And what you 
get most times from those people is not just a story, but you 
get the passion. There is just this wonderful passion about the 
ability to educate the rest of the country on what this story 
really was. And what that education means is a country that 
begins to look at each other in an entirely different--from an 
entirely different perspective. And I think that is exactly 
what it is. It is just the passion for the story.
    Mr. Hansen. The gentlelady from Wyoming.
    Mrs. Cubin. Thank you, Mr. Chairman. I especially liked 
your remark, Mr. Blockson, that we want to commemorate, not 
commercialize. And also several of you alluded to the fact that 
the people at the local level know how to do this better than 
the people at the national level or the people from another 
part of the country. And I so very, very much support that 
concept, not just with this issue but most all issues that come 
into play in my life. The grass-roots effort that I see from 
all of you, all of you out there, is very moving to me, and I 
am so thankful that you are doing this.
    I represent the entire State of Wyoming, and we have fewer 
than 2 percent African American population in the entire State, 
and I know that the education that I received--I am a chemist--
in Wyoming was a wonderful education, but it wasn't complete. 
And now the opportunity my children will have to learn about 
all Americans is very, very rewarding to me. And I thank you 
very much.
    Mr. Hansen. The gentleman from Nevada.
    Mr. Gibbons. Thank you, Mr. Chairman. And I also would like 
to join my colleagues in thanking all of you for your 
appearance here today. I think it is very important for America 
to hear and to learn about what this project is all about and 
what we are trying to celebrate here. I think if this country 
is ever going to heal, it has to heal from inside. And in order 
to heal from inside, we have to educate. This program, this 
project will help America heal from inside. I think it is a 
wonderful opportunity for us to create an institution of 
recognition of the struggle of Americans as the history of this 
country developed. This is critically important to the future 
of this country. I applaud you and I thank you very much for 
your effort in trying to get this promoted. Thank you, Mr. 
Chairman.
    Mr. Hansen. Thank you. Mr. Stokes.
    Mr. Stokes. Thank you, Mr. Chairman. Mr. Chairman, I don't 
have any questions, but I would like to take just a moment to 
express my appreciation to Ms. Iantha Gantt-Wright, to Curator 
Charles L. Blockson, Ms. Cathy D. Nelson and Mr. Edward J. 
Rigaud for their very eloquent and powerful testimony here this 
morning with reference to this part of American history.
    Mr. Chairman, this is one of those days when one serving in 
the U.S. Congress feels how very important it is to have an 
opportunity to serve in this great body. There are days when 
one questions whether it is really--whether you are really 
providing a service to be here. This happens to be one of those 
days where I in particular feel very good about being able to 
serve in the U.S. Congress.
    I am mindful on an occasion of this sort that I am a great 
grandson of a slave. I am also reminded of the fact that in the 
history of the U.S. Congress, less than 100 African Americans 
have ever served in the U.S. Congress. And so I sit here today, 
of course, with a great deal of personal feeling regarding the 
history lesson that we have heard in this room today. And I 
again want to especially thank you for the privilege all of us 
have had to be able to participate in the history that has 
taken place in this room today. And I thank you.
    Mr. Hansen. Mr. Portman.
    Mr. Portman. Thank you, Mr. Chairman. I, too, want to thank 
the panel. I have no questions for them, but to commend them. 
Iantha, you were very helpful in coming up with this 
legislation. I think this is the proper vehicle. I know that 
every one of the panelists and a lot of the visitors who are 
with us today, Mr. Chairman, have put an enormous amount of 
time and energy into this effort. Dr. Blockson and I have 
spoken before about his research dating back a couple of 
decades and other people who I see around the room who have 
also worked together and in their own regions on this effort.
    I am very pleased to see that everyone is pulling together. 
I would urge all of us to continue to do that. And I think that 
is one of the lessons, of course, of the Underground Railroad, 
is the cooperation that we are commemorating here today. I also 
think that it is important that we all try to stick together as 
we move this process forward. I saw that today and I want to 
thank everyone, because a number of people have spent an 
enormous amount of time and energy working on this. It is 
difficult sometimes to pull together with a single vehicle or 
method or approach to commemorating this incredible mosaic that 
was the Underground Railroad that has so many aspects to it. It 
is very difficult, I think, to commemorate with one single 
approach.
    Again, I want to thank all the panelists, Iantha 
particularly, for kind of pulling this together.
    I am very pleased, Mr. Chairman, with your comments and the 
support of others around this panel. I think this is something 
that is very important for this Congress to do and for this 
country to do for proper commemoration. I would just also thank 
you for the forum today, because you heard a lot of very 
powerful statements made by our panelists. It is a very 
emotional and powerful tale, and you have provided the ability 
for this to be told.
    I hope that we will now be able to move forward to final 
passage, enactment, and we can do something together, as Mr. 
Stokes says, which will be positive for not just this Congress 
but for our country. It is a pleasure to have been involved in 
it and to have been enriched myself as I looked into my own 
roots. And I think all Americans will find that experience 
enriching.
    Thank you, Mr. Chairman.
    Mr. Hansen. Thank you very much. We thank the distinguished 
panel for their excellent testimony. We will excuse you at this 
time and turn to our last panel. The last panel is Albert C. 
Eisenberg, Deputy Director for Conservation Policy, National 
Parks and Conservation Association, and our former colleague, 
Allan T. Howe, Washington Representative, National Park 
Hospitality Association. Mr. Eisenberg, you now have 5 minutes.

     STATEMENT OF ALBERT C. EISENBERG, DEPUTY DIRECTOR FOR 
     CONSERVATION POLICY, NATIONAL PARKS AND CONSERVATION 
                          ASSOCIATION

    Mr. Eisenberg. Thank you, Mr. Chairman and members of the 
Subcommittee. I am Albert C. Eisenberg, Deputy Director of 
Conservation Policy for National Parks and Conservation 
Association. We were founded in 1919, and today have about 
500,000 members.
    I will summarize my statement and ask that the written one 
be included in the record.
    I appreciate the opportunity to indicate our strong support 
for H.R. 755. By coincidence, the basic elements of my 
testimony track Mr. Duncan's almost exactly, but that will not 
dissuade me from proceeding.
    I have three points here. Before I get to them I do want to 
commend Mr. Duncan for this leadership in this important issue, 
and you, Mr. Chairman, for holding these hearings and being 
responsive to it. Three basic points: National Park Service has 
an enormous and growing backlog of maintenance operations and 
capital projects that regular appropriations can't match. Two, 
the Federal Government has a fundamental responsibility to 
support the National Parks through general appropriations. We 
should also use other means to supplement, not supplant these 
appropriations. Three, the taxpayer checkoff concept is a sound 
one that Congress should endorse by enacting this legislation 
with just a couple of modest but important changes.
    The backlog: Congressional appropriations would reach $1.6 
billion for fiscal year 1998 under the Presidential 
Congressional Budget Agreement, but looked at over the last 20 
years that amount represents a substantial loss in actual 
purchasing power. In other words, as actual dollar levels have 
increased, the value of these dollars is stretched thinner and 
thinner.
    Park visitation has grown to almost 270 million people now, 
55 million more than 20 years ago. It has a direct impact on 
the amount and severity of park needs. The park system has 
grown, too, since then by 79 new units. The Park Service 
backlogs $5.6 billion for construction and maintenance, $2 
billion in resource protection, $1.2 billion land acquisition, 
which we understand is not part of this particular legislation.
    As the old saying goes, the harder I run the behinder I 
get, and that is basically how the Park Service is operating 
today with these backlogs. We have a survey of park 
superintendents that bears this out, and I would like to have 
that submitted for the record, Mr. Chairman.
    Mr. Hansen. Without objection.
    Mr. Eisenberg. The combination of internal and external 
pressures compounded by inadequate Federal funding have 
imperiled places that this Nation has officially recognized as 
the American peoples' most treasured lands. As the parks 
historic, cultural and natural resources deteriorate, along 
with infrastructure and facilities designed to serve and to 
help in the safety of park visitors, the very reasons that 
Americans value their parks will diminish too. Behind repeated 
expressions of support for the national parks, the Federal 
Government has also got to place the money to protect the 
resources that make these places unique, enduring symbols of 
America's relationship to its land and its heritage.
    Two, supplemental financing: It is a good idea to augment 
general appropriations with supplement sources of funds to 
benefit the national parks. The new fee program is one way to 
do it. We support this at reasonable levels carefully 
monitored, its progress measured according to suitable, 
reliable criteria on which to base future decisions. Too, like 
you, Mr. Chairman, we are also eager for reform of the national 
parks concession system, and we look forward to our continuing 
collaboration with you on this important issue.
    Also NPCA supports a workable program of revenue bond 
finance for park capital projects, particularly for resource 
protection projects.
    Three, to the point of this hearing, Mr. Duncan's taxpayer 
checkoff program offers a worthwhile addition to the list of 
supplemental financing proposals. It should be adopted. It 
creates an entirely win/win result for the national parks, the 
American taxpayer and the Federal Government. It would utilize 
a mechanism already in place. It would cost the Federal 
Government nothing since additional administrative costs, if 
any, would be financed by taxpayers' donations. Monies would 
come into the program through entirely voluntary contributions 
that in many cases would otherwise be lost to the Federal 
Treasury through tax refunds.
    Mr. Duncan's proposal is based on a long-time experience 
with the State. As he noted, 41 plus the District of Columbia 
already have some 163 taxpayer checkoff programs. Many of the 
programs relate directly to the purpose of Mr. Duncan's 
legislation. The most popular and widely employed program of 
this type are the non-game wildlife funds that exist in 36 
States. We think that when you figure the amount of taxpayers 
in this--tax returns in this country on an individual basis, 
about 116 million, a 1-percent median participation rate for 
these programs and then calculate the $8.28 per tax return 
amount here, multiply that product and put it all together, you 
get about a little less than $10 million per year from this 
program. It is a very worthwhile amount.
    We would suggest three changes. One, specify that 
construction include resource protection. We have got to 
protect and upgrade these historic structures and cultural 
sites and other park resources or else the park's values will 
decline and visitors will not enjoy what they have come to 
enjoy. Specify that the funds derived from the program shall 
not be used to offset Congressional appropriations. We know you 
can't bind the Committee, the appropriations committees in that 
regard, but it does send a strong signal about the intent of 
the legislation. Three, establish a study on the effects of the 
program for the 2-year period following enactment so that you 
can monitor how it works and then make adjustments as 
necessary.
    With your indulgence, Mr. Chairman, I will address one 
quick issue of the National Park Service position. Just because 
others may also have a good idea about other tax checkoffs 
doesn't mean that none should be accepted. Congress is fully 
capable of determining which if any taxpayer checkoff to 
specify. And besides, as Mr. Gibbons pointed out earlier, these 
are not Federal funds. These are taxpayers' money, and this 
legislation presents an organized means of encouraging 
voluntary contributions.
    Thank you, Mr. Chairman.
    [Statement of Albert C. Eisenberg may be found at end of 
hearing.]
    Mr. Hansen. Thank you. From Utah, Mr. Howe.

STATEMENT OF ALLAN T. HOWE, WASHINGTON REPRESENTATIVE, NATIONAL 
                  PARK HOSPITALITY ASSOCIATION

    Mr. Howe. Thank you, Mr. Chairman. Nice to be back in the 
old Committee room again where I spent a number of busy hours 
when I was here. This is a wonderful Committee, and you are 
doing an outstanding job as the Chairman of this Committee 
moving forward the protection and the use and enjoyment of our 
national parks by millions of visitors who come every year.
    Mr. Duncan, I am particularly pleased to be here today to 
support your legislation, H.R. 755. You have done a remarkable 
job, I think, of outlining an idea and a method by which the 
Park Service can be supported and good projects within the Park 
Service can be funded with no impact at all on the deficit. And 
it should give no worry to anybody in the Congress to support 
that legislation.
    I am also glad to be here with Al Eisenberg, who is the 
Chairman of the Arlington County Board, who I support and try 
to work with over in Arlington where I live.
    Today I would like to say a number of things, Mr. Chairman. 
Some people may find it curious that the association that I 
represent, which of course is the National Park Hospitality 
Association, the men and women and their companies who provide 
visitor services in the parks, would come forward and support 
this legislation. But as one considers the fact that our 
businesses only exist in terms of supporting the visitors who 
come to the parks and enjoy it, you can understand that if the 
infrastructure of the park is falling down around our visitor 
service businesses, no one would come. No one wants to come and 
endanger their lives to participate even in the glorious 
experience of going to a scenic area that would be otherwise 
very enjoyable.
    The needs have been outlined very well before your 
Committee, and I won't spend a lot of time on that except to 
say that the figure of at least $8 billion in backlog does 
boggle my mind somewhat. When I was here we were dealing with 
millions and now you are into the billions. It seems to me that 
we need to take hold of this problem before it grows any 
larger. I won't elaborate more except to say that one fact that 
comes through to me as I drive to the parks, and you probably 
have this feeling, as well, is that throughout the entire park 
system each year the Park Service says about another 1 percent 
of the roads fall from fair classification to the area of poor 
or failed. So just to keep up with the road-building program, 
which of course as you know is only one aspect of it, but a 
very important one. The mobility of the visitors around the 
park to be able to see it is, in fact, very important.
    The concept of H.R. 755 does make sense. It allows the 
American taxpayers to authorize by a checkoff on their Federal 
tax returns a contribution over and above what they would owe 
in taxes, or to return a portion of their refund. Unlike the 
Presidential checkoff, as Mr. Duncan has observed, H.R. 755 
would not allow taxpayers to divert their taxes from the 
Treasury to the National Park Trust Fund, as provided and set 
up under section 2 of the bill.
    Now would the checkoff really help meet the NPS needs? Let 
me tick off about four quick points, Mr. Chairman. The National 
Park Service is the most popular Federal agency. I am always 
interested in the polls that are run when the pollsters go out 
among the public and they say what do you like best about the 
Federal Government. Well, as we know--you especially who serve 
in the Congress know the American people aren't always very 
happy with what the government is doing, and it is incredible 
that the Park Service comes out No. 1 in all of these polls of 
relative popularity.
    What does that mean in terms of the checkoff? Certainly it 
means that their idea of supporting the Park Service and 
favorably endorsing what they are doing would likely carry over 
to this checkoff system. We would get, I think, a tremendous 
response.
    No. 2, the precedent of the Presidential checkoff shows 
that it could be done. Over the last 3 years, the Presidential 
checkoff has raised over $200 million. I think that could be 
matched or even exceeded by this system that is set up for the 
parks. We are talking here about the 368 units of the park 
system. The Park Service would certainly have to determine 
where the greatest need was. As we saw this year with Yosemite, 
that was crucial to get that problem solved, which I commend 
you and your colleagues in the Appropriations Committee for 
addressing this year to get those needs taken care of. It would 
change from year to year.
    No. 3, the cost to the Internal Revenue Service would be 
minimal. The reprinting of the forms goes on every year anyway. 
The addition of another line to explain the Park Service 
checkoff would not be any great burden on cost to the National 
Park Service.
    No. 4, the similar conservation checkoff programs, as has 
been observed, in various States has been successful. We have 
observed that 41 States have a successful program.
    In conclusion, Mr. Chairman, let me just say that the 
American people do have a longstanding love affair with 
recreation activities on their public lands, and especially do 
we see this in our national parks. Millions upon millions of 
American families and many more foreign visitors come to enjoy 
our camping, hiking, boating, fishing, sightseeing and other 
sports each year. These visits are very valuable in the ways in 
which our Nation rekindles its love and dedication to our great 
historic, cultural, professional, natural and recreational 
heritage. I am confident that millions of Americans will 
respond to the opportunity to make a small but significant 
contribution to support our national parks if Congress will 
enable them to do so through the provisions of H.R. 755.
    Thank you, Mr. Chairman, for this opportunity to testify.
    [Statement of Allan T. Howe may be found at end of 
hearing.]
    Mr. Hansen. Thank you very much. We appreciate the 
testimony of both of you gentlemen. Questions for the panel, 
Mr. Duncan?
    Mr. Duncan. Well, thank you, Mr. Chairman. First, let me 
thank Mr. Eisenberg and former Congressman Howe for some 
outstanding testimony and remarks and thank them for the 
support that they and their organizations have provided to this 
legislation. It really means a lot to me personally and I 
appreciate it very much.
    Like you, I am extremely optimistic about this legislation. 
As Congressman Howe pointed out, the Presidential checkoff has 
resulted in over $200 million in funds going to the 
Presidential campaigns in just the last 3 years. And I think 
this checkoff will be much more popular than that.
    Mr. Eisenberg's group conducted a poll not too long ago 
that found that 80 percent of the American people would support 
or would give at least a $1 contribution to the parks if given 
an opportunity to do so on their tax returns. And as I said in 
my opening statement, we envision this, if we can accomplish 
this, to be done in a way in which people can contribute $1, $5 
or $10. And I think that many, many people would contribute 
some very large amounts. And I think that we would be amazed at 
what could be raised in this way. I believe we could raise 
hundreds of millions of dollars each year.
    So I appreciate the efforts that both of you are making 
through your groups and your willingness to come here and 
testify in support of this legislation today.
    I did--interestingly enough, I noticed that Mr. Galvin said 
that his opposition was regrettable, and I tried to point out 
that States, 41 States have these, and Mr. Eisenberg mentioned 
the District of Columbia also. They have been able to limit 
these checkoffs and keep their tax forms simple and do this 
without any real problem. And Mr. Galvin was smiling and very 
friendly out in the hall and he said--he told me, he said, 
Congressman, he said, we would love your bill. And I think that 
the lukewarm opposition that he expressed was--came from a 
little higher up, maybe, than the Treasury or the OMB or 
something like that. But I think it is opposition that we can 
overcome.
    One matter of paperwork, I suppose. I do have a letter from 
the Friends of the Great Smoky Mountains National Park. This is 
an organization with over 6,000 members which has raised--I 
said in my statement $1.3 million. Since they were formed 3 
years ago, they have raised $1.6 million. And they have written 
a letter, a very strong letter, in support of this legislation. 
And they have asked that I place this in the record. And, Mr. 
Chairman, I would like to place this in the record at this 
time.
    Mr. Hansen. Without objection.
    [Statement of Friend of Great Smoky Mountains may be found 
at end of hearing.]
    Mr. Duncan. Thank you very much.
    Mr. Hansen. Thank you, Mr. Duncan. The gentlelady from the 
Virgin Islands.
    Ms. Christian-Green. Thank you, Mr. Chairman. I don't 
really have a question. I want to thank Congressman Howe and 
Mr. Eisenberg for their testimony. I just had a comment based 
on Mr. Eisenberg's testimony, because as we see an increasing 
resistance to appropriating adequate funds for national parks 
and public lands, I share what really is a concern that the 
funds supplement and supplant Federal appropriations. And I 
agree that if passed at the very least the intent of Congress 
that these funds not be used to offset the Congressional 
appropriations be included in the bill.
    Mr. Hansen. Thank you. The gentleman from Michigan, Mr. 
Kildee, the Distinguished Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Distinguished Chairman. It is 
good to have Allan Howe. Allan is one who befriended me when I 
first came to Congress 21 years ago, and I remember that very 
much, Allan. You made a very good point. The Park Service 
certainly is very well respected by the American people. If we 
ever had any doubt on that, when the government was closed down 
a couple years ago the thing that, I think, angered people more 
than anything else was the fact that the parks were closed now. 
It really--I got more letters on that than any other parts of 
government closing down. So I think your point was really 
demonstrated during that unfortunate closing down of 
government. And I think Mr. Duncan has a bill here that 
certainly, I think, will help them show their reverence and 
respect for the Park Service. I certainly would like to support 
him.
    Mr. Hansen. Thank you very much. We appreciate the 
testimony from the distinguished panel. Mr. Duncan.
    Mr. Duncan. Mr. Chairman, can I say one more thing? And I 
appreciate Ms. Christian-Green as a co-sponsor, and I think 
many, many of the co-sponsors that we have of this legislation 
are from this Subcommittee and Full Committee. I appreciate Mr. 
Kildee's support and especially yours. But also, I did mean to 
mention it when I was speaking a few moment ago that I think 
Mr. Eisenberg has made several good suggestions in regard to 
this legislation. I think they are suggestions that can make 
this bill even better. And so we will work with you in regard 
to those suggestions.
    Mr. Eisenberg. Thank you very much.
    Mr. Hansen. We look forward to marking up this legislation. 
I would be curious--I don't mean to take you time and I have 
got a meeting in about 5 minutes, but I would curious to know 
your reaction to the--what was it, U.S. News and World Report 
or Newsweek or something that said Parks in Peril? Which one 
was that? U.S. News and World Report. I hope you both read 
that. I would be curious to know your reaction. If you ever get 
a chance, drop me a note.
    Thank you. The Committee will stand adjourned.
    [Whereupon, at 11:52 a.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T4138.001
    
    [GRAPHIC] [TIFF OMITTED] T4138.002
    
    [GRAPHIC] [TIFF OMITTED] T4138.003
    
    [GRAPHIC] [TIFF OMITTED] T4138.004
    
    [GRAPHIC] [TIFF OMITTED] T4138.005
    
    [GRAPHIC] [TIFF OMITTED] T4138.006
    
    [GRAPHIC] [TIFF OMITTED] T4138.007
    
    [GRAPHIC] [TIFF OMITTED] T4138.008
    
    [GRAPHIC] [TIFF OMITTED] T4138.009
    
    [GRAPHIC] [TIFF OMITTED] T4138.010
    
    [GRAPHIC] [TIFF OMITTED] T4138.011
    
    [GRAPHIC] [TIFF OMITTED] T4138.012
    
    [GRAPHIC] [TIFF OMITTED] T4138.013
    
    [GRAPHIC] [TIFF OMITTED] T4138.014
    
    [GRAPHIC] [TIFF OMITTED] T4138.015
    
    [GRAPHIC] [TIFF OMITTED] T4138.016
    
    [GRAPHIC] [TIFF OMITTED] T4138.017
    
    [GRAPHIC] [TIFF OMITTED] T4138.018
    
    [GRAPHIC] [TIFF OMITTED] T4138.019
    
    [GRAPHIC] [TIFF OMITTED] T4138.020
    
    [GRAPHIC] [TIFF OMITTED] T4138.021
    
    [GRAPHIC] [TIFF OMITTED] T4138.022
    
    [GRAPHIC] [TIFF OMITTED] T4138.023
    
    [GRAPHIC] [TIFF OMITTED] T4138.024
    
    [GRAPHIC] [TIFF OMITTED] T4138.025
    
    [GRAPHIC] [TIFF OMITTED] T4138.026
    
    [GRAPHIC] [TIFF OMITTED] T4138.027
    
    [GRAPHIC] [TIFF OMITTED] T4138.028
    
    [GRAPHIC] [TIFF OMITTED] T4138.029
    
    [GRAPHIC] [TIFF OMITTED] T4138.030
    
    [GRAPHIC] [TIFF OMITTED] T4138.031
    
    [GRAPHIC] [TIFF OMITTED] T4138.032
    
    [GRAPHIC] [TIFF OMITTED] T4138.033
    
    [GRAPHIC] [TIFF OMITTED] T4138.034
    
    [GRAPHIC] [TIFF OMITTED] T4138.035
    
    [GRAPHIC] [TIFF OMITTED] T4138.036
    
    [GRAPHIC] [TIFF OMITTED] T4138.037
    
    [GRAPHIC] [TIFF OMITTED] T4138.038
    
    [GRAPHIC] [TIFF OMITTED] T4138.039
    
    [GRAPHIC] [TIFF OMITTED] T4138.040
    
    [GRAPHIC] [TIFF OMITTED] T4138.041
    
    [GRAPHIC] [TIFF OMITTED] T4138.042
    
    [GRAPHIC] [TIFF OMITTED] T4138.043
    
    [GRAPHIC] [TIFF OMITTED] T4138.044
    
    [GRAPHIC] [TIFF OMITTED] T4138.045
    
    [GRAPHIC] [TIFF OMITTED] T4138.046
    
    [GRAPHIC] [TIFF OMITTED] T4138.047
    
    [GRAPHIC] [TIFF OMITTED] T4138.048
    
    [GRAPHIC] [TIFF OMITTED] T4138.049
    
    [GRAPHIC] [TIFF OMITTED] T4138.050
    
    [GRAPHIC] [TIFF OMITTED] T4138.051
    
    [GRAPHIC] [TIFF OMITTED] T4138.052
    
    [GRAPHIC] [TIFF OMITTED] T4138.053
    
    [GRAPHIC] [TIFF OMITTED] T4138.054
    
    [GRAPHIC] [TIFF OMITTED] T4138.055
    
    [GRAPHIC] [TIFF OMITTED] T4138.056
    
    [GRAPHIC] [TIFF OMITTED] T4138.057
    
    [GRAPHIC] [TIFF OMITTED] T4138.058
    
    [GRAPHIC] [TIFF OMITTED] T4138.059
    
    [GRAPHIC] [TIFF OMITTED] T4138.060
    
    [GRAPHIC] [TIFF OMITTED] T4138.061
    
    [GRAPHIC] [TIFF OMITTED] T4138.062
    
    [GRAPHIC] [TIFF OMITTED] T4138.063
    
    [GRAPHIC] [TIFF OMITTED] T4138.064
    
    [GRAPHIC] [TIFF OMITTED] T4138.065
    
    [GRAPHIC] [TIFF OMITTED] T4138.066
    
    [GRAPHIC] [TIFF OMITTED] T4138.067
    
    [GRAPHIC] [TIFF OMITTED] T4138.068
    
    [GRAPHIC] [TIFF OMITTED] T4138.069
    
    [GRAPHIC] [TIFF OMITTED] T4138.070
    
    [GRAPHIC] [TIFF OMITTED] T4138.071
    
    [GRAPHIC] [TIFF OMITTED] T4138.072
    
    [GRAPHIC] [TIFF OMITTED] T4138.073
    
    [GRAPHIC] [TIFF OMITTED] T4138.074
    
    [GRAPHIC] [TIFF OMITTED] T4138.075
    
    [GRAPHIC] [TIFF OMITTED] T4138.076
    
    [GRAPHIC] [TIFF OMITTED] T4138.077
    
    [GRAPHIC] [TIFF OMITTED] T4138.078
    
    [GRAPHIC] [TIFF OMITTED] T4138.079
    
    [GRAPHIC] [TIFF OMITTED] T4138.080
    
    [GRAPHIC] [TIFF OMITTED] T4138.081
    
    [GRAPHIC] [TIFF OMITTED] T4138.082
    
    [GRAPHIC] [TIFF OMITTED] T4138.083
    
    [GRAPHIC] [TIFF OMITTED] T4138.084
    
    [GRAPHIC] [TIFF OMITTED] T4138.085
    
    [GRAPHIC] [TIFF OMITTED] T4138.086
    
    [GRAPHIC] [TIFF OMITTED] T4138.087
    
    [GRAPHIC] [TIFF OMITTED] T4138.088
    
    [GRAPHIC] [TIFF OMITTED] T4138.089
    
    [GRAPHIC] [TIFF OMITTED] T4138.090
    
    [GRAPHIC] [TIFF OMITTED] T4138.091
    
    [GRAPHIC] [TIFF OMITTED] T4138.092
    
    [GRAPHIC] [TIFF OMITTED] T4138.093
    
    [GRAPHIC] [TIFF OMITTED] T4138.094
    
    [GRAPHIC] [TIFF OMITTED] T4138.095
    
    [GRAPHIC] [TIFF OMITTED] T4138.096
    
    [GRAPHIC] [TIFF OMITTED] T4138.097
    
    [GRAPHIC] [TIFF OMITTED] T4138.098
    
    [GRAPHIC] [TIFF OMITTED] T4138.099
    
    [GRAPHIC] [TIFF OMITTED] T4138.100
    
    [GRAPHIC] [TIFF OMITTED] T4138.101
    
    [GRAPHIC] [TIFF OMITTED] T4138.102
    
    [GRAPHIC] [TIFF OMITTED] T4138.103
    
    [GRAPHIC] [TIFF OMITTED] T4138.104
    
    [GRAPHIC] [TIFF OMITTED] T4138.105
    

</pre></body></html>
